<html>
<title> - THE FY 2016 BUDGET REQUEST: ASSESSING U.S. FOREIGN ASSISTANCE EFFECTIVENESS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
     THE FY 2016 BUDGET REQUEST: ASSESSING U.S. FOREIGN ASSISTANCE 
                             EFFECTIVENESS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2015

                               __________

                           Serial No. 114-53

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
        
        
        
        
        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                         U.S. GOVERNMENT PUBLISHING OFFICE
 93-817PDF                       WASHINGTON : 2015       
________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                                
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
TOM EMMER, Minnesota

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
               
               
               
               
               
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Alfonso E. Lenhardt, Acting Administrator, U.S. 
  Agency for International Development...........................     5
The Honorable Dana J. Hyde, chief executive officer, Millennium 
  Challenge Corporation..........................................    19

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Alfonso E. Lenhardt: Prepared statement............     7
The Honorable Dana J. Hyde: Prepared statement...................    22

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    63
Written responses to questions submitted for the record by:
  The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
    from the State of Florida....................................    64
  The Honorable Eliot L. Engel, a Representative in Congress from 
    the State of New York........................................    68
  The Honorable Ted Poe, a Representative in Congress from the 
    State of Texas...............................................    74
  The Honorable Gerald E. Connolly...............................    78


     THE FY 2016 BUDGET REQUEST: ASSESSING U.S. FOREIGN ASSISTANCE 
                             EFFECTIVENESS

                              ----------                              


                        TUESDAY, MARCH 17, 2015

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order and I will 
ask the members if they will take their seats.
    Today, we review the budget requests of the U.S. Agency for 
International Development and the Millennium Challenge 
Corporation, and when thinking about your effectiveness the 
ultimate objective must be to see countries graduate from 
foreign assistance.
    Countries that respect individual rights and respect 
property rights, clearly, are more likely to enjoy stability. 
They are more likely to have economic growth. Both are 
essential to overcoming poverty than those countries that do 
not.
    So when it comes to development, the right policies matter, 
far more than the dollars and cents and that is why the 
Millennium Challenge Corporation is so important and that is 
why the right focus on what USAID does is so important.
    So these are the principles that this committee has 
promoted in the past. For example, if you look at the African 
Growth and Opportunity Act, which I helped write 15 years ago, 
that was a plan to help these countries develop and we are 
going to have to reauthorize that this year.
    AGOA, as we call it, is up for reauthorization. These are 
the principles that guided the founding also, as I say, of the 
MCC and by working with poor but relatively well-governed 
countries; by recognizing sound policies; by committing to the 
principles of transparency and accountability, MCC is putting 
countries on the path toward graduation.
    So today MCC is requesting the ability to enter into 
compacts that would advance regional economic integration and 
regional trade, and I am pleased to be working with Karen 
Bass--Congresswoman Bass--on this issue.
    And MCC, at the end of the day, must stay true to its roots 
and not dilute its rigorous selection criteria and that is a 
constant concern because that is what gives the leverage to 
keep moving these countries toward the proper governance.
    Meanwhile, USAID has established itself as a global leader. 
In humanitarian assistance, in disaster relief; from the 
devastating earthquake in Gujarat to the deadly Ebola epidemic 
in West Africa, USAID typically is the first to respond.
    In the Philippines, I saw firsthand Typhoon Haiyan's 
devastation there and USAID knew that it would take 3 weeks for 
U.S. food aid stored in Sri Lanka to arrive, 12 weeks if they 
had to ship that food from the United States. So what they did 
was they bought the food locally. They saved lives as a result.
    I was pleased to see the administration renew its request 
to exempt a quarter of the Food for Peace budget from costly, 
outdated and inefficient U.S. purchase and shipping 
requirements. But the President should have asked for more. 
This is timid reform.
    Still, I will work with the administration and my 
colleagues so that our food aid reaches more people in less 
time for less money, and that is the nature of the reforms that 
we have pushed in this committee in the past.
    Despite strong performance in the area of disaster relief, 
USAID has historically struggled to perform in other areas. Its 
poor performance in Haiti led this committee to pass successful 
legislation last Congress to step up oversight of the lagging 
aid effort in Haiti, and reports of waste continue to come out 
of Afghanistan.
    To its credit, USAID has been working to redefine itself 
over the past 5 years. In many areas it is putting MCC 
principles into practice. The agency is focusing on results and 
innovation while tapping the expertise and capital of the 
private sector.
    USAID also is becoming more transparent. The agency has 
begun implementing a number of the transparency reforms that 
this committee has demanded and that Mr. Poe on the committee 
has advanced.
    What isn't commendable is the administration's failure to 
nominate an inspector general, which has left USAID and MCC 
without a top cop for over 1,200 days.
    Ranking Member Engel and I have encouraged the President to 
get the second longest IG vacancy filled now, and I am 
demanding that USAID sort out its policy with the Government 
Accountability Office so it can once again gain complete, 
timely access to the information that the Government 
Accountability Office requires to execute its congressionally 
mandated oversight role.
    This is in keeping with the USAID new commitment to 
transparency as well as in keeping with the former 
administrator's personal pledge to me. As you know, Director 
Shaw changed this policy and now we look forward to its 
implementation.
    So there is no shortage of challenges on your plate and at 
under 2 percent of the total annual budget, the International 
Affairs Budget has had to punch above its weight and that won't 
be changing anytime soon, meaning a focus on efficient and 
effective programs has to be a continuum here.
    So I look forward to working with you, Ambassador Lenhardt 
and Ms. Hyde, to address these challenges and these 
opportunities over the coming year, and I will turn to Mr. 
Eliot Engel of New York, our ranking member, for his opening 
statement.
    Mr. Engel. Mr. Chairman, thank you very much for holding 
this important hearing. I have always been very fond of USAID 
and the wonderful work that USAID does.
    Ambassador Lenhardt, Ms. Hyde, thank you for testifying 
this morning. Thank you both for all your hard work and service 
to our country. As the chairman mentioned, compared to the 
entire Federal budget what we are discussing today represents a 
drop in the ocean. I have long felt that U.S. foreign aid 
should be increased.
    But a lot of people don't realize that it is barely 1 
percent of our budget. But it is a critical part of America's 
foreign policy. Our investments in foreign assistance pay huge 
dividends in terms of our country's security, prosperity and 
values.
    Our efforts abroad save millions of lives, improve 
governance and promote economic opportunity around the world. 
The benefits of foreign assistance are clear. But, of course, 
every tax dollar must be spent wisely.
    That is why this committee's oversight of USAID, the State 
Department, MCC and other foreign affairs agencies is so 
critical.
    Ms. Hyde, your leadership of MCC has been outstanding, as 
far as I am concerned. For more than a decade, MCC has 
maintained an emphasis on data-driven, accountable and 
transparent development efforts. I look forward to continued 
progress to ensure that MCC maximizes the benefits of this 
approach.
    I also want to thank you for MCC's work with my staff to 
help Kosovo compete fairly within the MCC framework. Thanks to 
this collaboration, we found a way to generate data on Kosovo 
that can be submitted to MCC and included on MCC's scorecard.
    Ambassador Lenhardt, thank you for stepping into the role 
of acting administrator. Roger Shaw has big shoes to fill, as I 
am sure you know, but your distinguished record tells me that 
USAID is in good hands, remains in good hands. Your leadership 
comes in an especially challenging time.
    As we face expanding needs due to conflict and instability 
around the world, our foreign assistance budget remains 
constrained.
    I want to thank USAID for its incredible work in responding 
to the Ebola crisis in West Africa. After a very challenging 
year, our strategy is working but the situation remains 
critical in Sierra Leone and Guinea.
    We need smart investments in sustainable health care 
systems. We need to help countries identify and contain 
infectious diseases and we need to help people live healthy 
productive lives.
    We must also not forget that treatable diseases continue to 
kill millions of people every year. Last year alone, hundreds 
of thousands died from malaria and 1.5 million succumbed to 
tuberculosis.
    I hope Congress will provide robust funding for our global 
health programs this year. Likewise, I am concerned that we 
will need more funding for humanitarian relief in the coming 
fiscal year to deal with crises in Syria, Ukraine, South Sudan, 
the Central African Republic and many other places.
    Four years after the start of the horrendous conflict in 
Syria, the country continues to be a magnet for extremists. 
ISIL has spread across Syria and deep into Iraq. The Assad 
regime commits atrocities. I just heard of more gas atrocities 
this morning.
    They commit atrocities with impunity and the humanitarian 
crisis has reached critical proportions. We must do more to 
help bring this conflict to an end and respond to the immense 
suffering it has caused.
    On Ukraine, the President recently signed bipartisan 
legislation expanding assistance across a variety of sectors. 
Chairman Royce and I have worked in the collaborative process 
to help Ukraine as have the members of this committee.
    Since USAID is the lead agency implementing much of this 
effort, I look forward to hearing your views on these new 
programs concerning Ukraine.
    I am very pleased by the President's $1.1 billion proposal 
to address the root causes of child migration from Central 
America.
    I also want to call to your attention to a bipartisan 
letter I sent you last week along with Ms. Ros-Lehtinen, Mr. 
Sires, Mr. Cicilline and others urging USAID to provide direct 
funding to LGBT human rights groups in Central America.
    The level of violence against LGBT individuals in Honduras, 
Guatemala, and El Salvador is unacceptable. In Africa, 
increased trade and access to electricity are critical to 
economic growth and development.
    USAID is leading with the Power Africa and Trade Africa 
initiatives. I hope Congress will complement those efforts by 
passing Electric by Africa and reauthorizing the African Growth 
and Opportunity Act.
    And, again, the chairman has been a champion on this for 
many, many years. Both of these laws would bolster USAID's 
efforts and support innovative and enterprising Africans.
    And finally, in Afghanistan and Pakistan the United States 
has spent billions of dollars on roads, agriculture, rule of 
law and capacity building.
    I hope you will focus on how USAID plans to monitor 
projects in Afghanistan after the withdrawal of all American 
combat troops and assess the continuing value of our aid to 
Pakistan.
    Ambassador Lenhardt and Ms. Hyde, thank you again for 
appearing here today and I look forward to your testimony.
    Chairman Royce. And let me second, Mr. Engel, your remarks 
about former Director Shaw's work and on wishing you well, 
Ambassador, in your new position as acting Ambassador for the 
U.S. Agency for International Development.
    Ambassador Lenhardt has continued in his service to this 
country. He served as the U.S. Ambassador of Tanzania from 2009 
to 2013. He also served this nation as the 36th sergeant of 
arms of the United States Senate and in that service was the 
first African American to serve as an officer of the Congress.
    Dana Hyde, prior to becoming chief executive officer of the 
Millennium Challenge Corporation, was the associate director at 
the Office of Management and Budget and previously worked at 
the State Department.
    So we welcome them, and without objection the witnesses' 
full prepared statements will be made part of the record and 
members here will have 5 calendar days to submit any statements 
or questions to you or any extraneous material for the record.
    So we will ask you both to please summarize your remarks 
and, Ambassador, we will start with you.

    STATEMENT OF THE HONORABLE ALFONSO E. LENHARDT, ACTING 
    ADMINISTRATOR, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ambassador Lenhardt. Thank you, Mr. Chairman, Ranking 
Member Engel and members of this committee for allowing me to 
discuss the Fiscal Year 2016 budget request for the United 
States Agency for International Development.
    Thanks to strong interagency partners like Dana Hyde and 
bipartisan support in Congress, we are fortunate to have 
leaders throughout government who understand the importance of 
development to our nation's security and prosperity.
    At USAID, we believe that by partnering to end extreme 
poverty and promote resilient democratic societies, we are 
helping developing countries transform into peaceful, open and 
flourishing partners for our own nation.
    As I testify today, my colleagues at USAID are supporting 
that mission and representing our country in dynamic and 
challenging environments around the world.
    We are rooting out threats before they reach our shores, 
unlocking flourishing markets for American businesses and 
connecting our young people and universities with global 
opportunities, all for less than 1 percent of the Federal 
budget.
    This year's budget request advances our country's interest 
while responding to pressing national security priorities all 
over the world, from Nigeria to Honduras.
    By leveraging public-private partnerships and harnessing 
innovation we are maximizing the value of each and every dollar 
that is entrusted to us.
    At the same time, we are making difficult choices about 
where our work will have the greatest impact, shifting 
resources and personnel to better advance our mission of ending 
extreme poverty around the world.
    These investments have delivered real measurable results on 
behalf of the American people. Our Feed the Future program has 
helped 7 million farmers boost their harvest with new 
technologies and improve nutrition for more than 12 million 
children.
    Our Africa has mobilized $20 billion in private sector 
commitments and encourage countries to make critical reforms, 
and thanks to groundbreaking investment in child and maternal 
survival, we are on track to save the lives of up to 15 million 
children and nearly 600,000 women by the year 2020.
    These efforts are at the core of a new way of doing 
business. After 5 years of reform, I am confident our agency is 
now a more accountable and effective enterprise.
    Yet, I am equally humbled by the challenges before us and 
recognize that we have much more work to do. That is why my 
focus will be on one core discipline--management. I will focus 
our energy in all of our activities at the agency to be more 
innovative and strategic in our effort to get better every day.
    Because while we may not have all the right answers, we are 
asking the right questions. Above all, I will ensure that we 
are good stewards of the precious resources that are entrusted 
to us.
    Spending over 30 years in the Army and becoming a two-star 
general and later as an Ambassador to Tanzania may not be the 
typical path to a job in development. But even though my 
journey was different from the development professionals with 
whom I had the privilege to serve, my conclusion is the same.
    America's investment in development is money well spent. 
Saving children from hunger and disease elevates our own moral 
strength.
    Empowering entrepreneurs to innovate and create new markets 
advances our own prosperity. Strengthening civil society not 
only gives a voice to the oppressed but also makes our own 
citizens more secure.
    Through our work, we are opening up new paths to 
opportunity, energizing the global economy and reducing the 
root causes of insecurity throughout the world. In doing so, we 
are advancing the values that unite the American people and the 
people throughout the world.
    As we work to tackle these global challenges, we will value 
your counsel on how we can become even more effective and, 
certainly, accountable.
    I thank you for your kind attention. I look forward to 
answering your questions.
    [The prepared statement of Ambassador Lenhardt follows:]
    
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                              ----------                              

    Chairman Royce. Thank you, Ambassador.
    Ms. Hyde.

   STATEMENT OF THE HONORABLE DANA J. HYDE, CHIEF EXECUTIVE 
           OFFICER, MILLENNIUM CHALLENGE CORPORATION

    Ms. Hyde. Thank you. Thank you, Chairman Royce, Ranking 
Member Engel, members of the committee. I am delighted to be 
here today with Ambassador Lenhardt to discuss the Millennium 
Challenge Corporation's Fiscal Year 2016 budget request.
    Just over 10 years ago, Congress created MCC as a 
competitive and incentive-based model----
    Chairman Royce. Ms. Hyde, let us make sure that that button 
is pushed. There we go. Thank you. Keep going. That mic may not 
be working. Let us try that one more time.
    Ms. Hyde. Are we good?
    Chairman Royce. Now we are good.
    Ms. Hyde. Now we are good. There we go.
    MCC was given a singular mission--reducing poverty through 
economic growth--and it was grounded in three core principles--
good governance, country ownership, and accountability for 
results.
    Over the past decade, we have seen the power of these 
principles in action. MCC creates incentives for countries to 
do the right thing. Our investments support democracy, help 
fight corruption and promote American values of economic 
freedom and good governance.
    Our work across the globe has created measurable 
improvements in the lives of the poor. And our partnerships 
have proven that poor countries will deliver on the promise of 
prosperity--when given the right incentives and the right 
support.
    As we look to Fiscal Year 2016 and beyond, MCC will build 
on this model of success. The President's budget request of 
$1.25 billion will help unlock MCC's own potential to advance 
America's interests in three important ways.
    First, by enabling new and deeper partnerships in 
critically important regions; second, by supporting efforts to 
drive transparency and improve data across the development 
community; and third, by leveraging private sector investments 
to widen impact and create trade and investment opportunities 
for American businesses.
    Let me expand just briefly on each of these points. 
Partnerships--over the past decade the majority of MCC's 
partnerships have been in Africa. Roughly 65 percent of the 
agency's portfolio has been invested on the continent, mostly 
in large scale infrastructure--roads, ports, power lines, water 
systems--projects that are designed to unlock impediments to 
economic growth.
    MCC is playing a key role in advancing the administration's 
Power Africa initiative. We have made a $1 billion commitment 
to Power Africa and we intend to commit roughly another $1 
billion to energy-focused compacts in sub-Saharan Africa.
    The MCC brand in Africa is strong and the continent holds 
tremendous promise for MCC to deepen its impact. In Fiscal Year 
2016, MCC will continue its bedrock commitment to Africa with 
investments in two of the countries hardest hit by Ebola--
Liberia and Sierra Leone.
    We will also focus on Niger, one of the poorest democracies 
in the world and a critical ally in the fight against violent 
extremism. And MCC will fund a new threshold program in Cote 
d'Ivoire, a country that reformed its entire family code to 
provide women equal rights as part of its effort to gain our 
assistance.
    While Africa will remain a core focus, MCC is also 
developing its first ever compact in South Asia with Nepal, one 
of the poorest countries in the region and now a committed 
democracy. And the board recently approved new compacts with 
the Philippines and Mongolia.
    Those countries present important opportunities to leverage 
our impact on poverty reduction and support U.S. interests in 
the region. In each of these partnerships, MCC will commit 
itself to evidence-based decision making and accountability for 
results.
    But what we have learned and what we know is that economies 
do not act in isolation. Markets are regional and if we seek to 
truly turn the dial on economic growth, we must think and act 
regionally.
    That is why we are requesting the operational flexibility 
to explore regional investments in appropriate circumstances 
and on a targeted basis. Examples could include linking 
transportation infrastructure within Central America or 
enhancing access to power in West Africa or in South Asia.
    Such investments offer the potential of fighting poverty on 
a wider scale, with higher economic returns and greater 
economies of scale. And they are squarely aligned with MCC's 
mission and its decade of experience in infrastructure 
development and incentive-based reforms.
    I am grateful to Chairman Royce for his support of regional 
investments and to Representative Bass for her sponsorship of 
such legislation.
    Second, data and transparency are built into everything we 
do at MCC. Indeed, in 2013 MCC was named the most transparent 
aid agency in the world. That leadership will continue as we 
release detailed geospatial and gender data on our investments 
and as we work with the consortium of organizations to collect 
even better data on governance.
    Finally, catalyzing private investment is at the core of 
our work. At the heart of the MCC model is investments that 
overcome barriers to growth, reform key sectors and create 
opportunities. The recent Ghana Power Compact serves as a model 
in this regard.
    MCC's $498 million investment in Ghana is expected to 
attract over $4 billion in U.S. private sector funding by 
transforming the country's power sector. In all of these areas, 
MCC punches above its weight.
    Our impact reaches beyond the specific projects that we 
fund. By helping to reform policies and revamp institutions, we 
help put our partner countries on the road to self-sufficiency 
and a future without aid.
    I know your constituents expect their money to be well 
spent, with clear metrics for success and a solid rate of 
return. That is why MCC treats foreign assistance like a 
business, making decisions based on hard data and rigorous 
analysis.
    That is why we closely monitor results on the ground and 
hold country partners accountable, and that is why I can assure 
you that in MCC, American taxpayers are getting a good return 
on their investment.
    On behalf of the agency, I would like to thank the 
committee for its support and guidance over the past decade. I 
look forward to our continued collaboration and to helping to 
build a more secure and prosperous future here at home and 
abroad. Thank you. I would be happy to answer your questions.
    [The prepared statement of Ms. Hyde follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                   ----------                              

    Chairman Royce. Thank you, Ms. Hyde. Thank you very much.
    I have got three questions that I want to ask and, 
Ambassador, I will just start with you.
    Over the past year, the committee has become increasingly 
concerned as we have seen USAID inhibiting the congressional 
watchdog here, the GAO, from doing its job, and as you know I 
spoke with former Administrator Shaw about this after being 
contacted a number of times by the GAO. And he gave me a 
written assurance that this policy would be repealed and that 
the GAO would be provided with the information including 
unredacted documents that it needs.
    And I was just going to ask you is this your commitment as 
well?
    Ambassador Lenhardt. Thank you, Mr. Chairman. I thank you 
also for the many opportunities where you support our programs. 
Certainly, I give you that commitment.
    Chairman Royce. That is fine. That is fine with me. That is 
good enough.
    Ambassador Lenhardt. Okay.
    Chairman Royce. We will see the policy is repealed and I 
will work with you on that and I appreciate it.
    Ambassador Lenhardt. Thank you.
    Chairman Royce. On food aid reform is another area where I 
worked with Director Shaw closely and I have been working with 
the ranking member and other members of this committee for 2 
years now to try to make food aid--the program there--more 
efficient and more effective.
    And we want to get more food sent to more people in need in 
real time here when these disasters hit and we can do this at a 
lesser cost if we--and we have made some progress in doing it.
    But, Ambassador, how much does USAID spend annually on 
shipping food aid as a result of the U.S. cargo preference 
requirements and how would USAID's food aid program be affected 
if cargo preference was bumped back up to 75 percent as been--
as was proposed by some last year?
    And I follow that up with another question--how many U.S. 
shipping companies benefit from agricultural cargo preferences? 
Are they all wholly U.S.-owned and how many more people could 
be reached with 45 percent flexibility, assuming a budget of 
$1.4 billion? If I can kind of give you that outlay and get 
your feedback.
    Ambassador Lenhardt. Thank you, Mr. Chairman.
    In answer to the question how many--how much did we spend, 
about $175 million to ship food aid was spent in Fiscal Year 
2013 with about $125 million spent on U.S. flag vessels to 
comply with cargo preference requirements.
    There are, as you indicated or requested, there are three 
carriers--principal carriers--that account for about 85 percent 
of the food aid shipped in the past two fiscal years and we 
spend, as I said, $175 million.
    The request for Fiscal Year 2016 is to give us a 25-percent 
leeway in that. That amount--that kind of flexibility would 
allow us to feed about 2 million more people around the world.
    It would probably get us to a point where we would be able 
to cut maybe 11 to 14 weeks off of delivery and it would get 
food in a timely fashion to those in need using a number of 
ways--voucher systems, cash vouchers, credit cards--to purchase 
local food items.
    In general, it would create an environment where, 
certainly, we would be faster in our effort to get food around 
to those in need.
    So I hope that was a--those responses addressed each of 
your questions.
    Chairman Royce. Thank you, Ambassador.
    The other issue I was going to raise is land tenure in the 
Philippines. As I noted in my opening statement, individual 
property and title transfer rights are really critical and we 
see this playing out all over the world.
    It helped spark a revolution across North Africa and the 
Middle East, and in Haiti the inability to secure land title 
has really impeded our recovery efforts there.
    In Cambodia and the Philippines, land grabbing routinely 
undermines U.S.-supported development efforts. So given the 
significance of U.S. investments in the Philippines, I have 
been pressing USAID and MCC to tackle the land grabbing issue 
there for years.
    I have made several trips there and seen this first hand, 
been out to some of the areas where this has occurred. I very 
much appreciate your efforts but it is unclear to me how high 
this is on the Embassy's priority list and that is why I raise 
it.
    Ambassador, what specifically is USAID doing to urge the 
Government of the Philippines to address the issue of land 
grabbing and have any of the corrupt local officials who are 
complicit in land grabbing been held accountable?
    Ambassador Lenhardt. Thank you, Mr. Chairman.
    Land tenure remains a key priority for USAID. The lack of 
formal access to land and natural resources is, in many ways, a 
major cause of poverty, certainly, conflict or, for that 
matter, prevention of a country from reaching its full 
development.
    Since 2008, USAID has worked to improve regulatory 
requirements for the Philippines--the Government of the 
Philippines--and streamline land registration processes of one 
description or another.
    I can tell you, Mr. Chairman, that in response to Typhoon 
Haiyan, many Philippine citizens lost their title as a result 
of that catastrophe and one of the things that we are doing 
specifically as your request is working with the Government of 
the Philippines as well as the city of Leyte to restore those 
deeds and titles to the people, farmers and other landholders.
    Again, as I think about this issue, the Philippines is 
certainly our focus but we are also looking at this across the 
globe.
    My own experience in Tanzania was one where land tenure 
became such a critical issue that in some cases people did not 
seek out an opportunity to improve themselves simply because 
they were denied the opportunity for land.
    And when we made it possible through encouraging the 
government's reform for people to use the land--farmers--they 
produced sufficient food items for themselves but also they 
produced items sufficient enough to sell on the market--the 
local markets.
    And so they improved themselves. They sent their children 
to school as a result of the cash they were able to secure as 
result of selling additional food items, and so this issue is a 
major consideration in development.
    And so you have pressed on a very key issue that we 
certainly have taken to heart and we will continue to work with 
your--you and your committee as something that certainly we 
have to get resolved as quickly as we possibly can.
    Chairman Royce. And one of the things that is happening is 
that very well-connected developers at the local level where 
there is local government corruption are basically blocking 
access to public roads.
    I saw this myself driving out to one of these areas where 
this had happened, and roaring up on a motorcycle is, you know, 
one of the private guards employed. He produces a semi-
automatic weapon and tells us we won't be able to access that 
public road. He has blocked that road.
    What he is in the process of doing is taking the land of 
people on the other side of that road, or his employer is in 
the process of doing that, because they can no longer access 
that land.
    And this is a process that, despite our effort to get it 
reversed, has not been reversed. At the Presidential level, the 
President--President Aquino--has tried to impact this.
    But at the local level in the Philippines, USAID and MCC, 
despite all of their engagement there--and we have a $433 
million compact with the Philippines that is going to be 
completed in May 2016. In December the board made the 
Philippines eligible to develop a second compact.
    So I think the MCC agrees that the lack of enforceable 
property and land tenure rights in the Philippines constrains 
economic growth. I know what I have heard from the U.S.--
Philippine-American investment community about their 
experiences there, their problems there.
    Will you condition the second compact upon progress in this 
area to make sure that on these public roads the Federal 
Government in the Philippines keeps them open, keeps them 
public and you remove those well-placed--those, you know, well-
connected developers who are out there blocking access so that 
people can get to their property?
    And the other question I would ask is what--both of you--
what else can we be doing to press the government to take this 
seriously?
    Ms. Hyde. Thank you, Mr. Chairman.
    In reference to the compact, well, first, let me say that 
MCC's experience has absolutely been the case that one of the 
key impediments to economic growth is insecure land tenure and 
the need for land reform.
    So we have worked in those areas in many countries. We are 
working now in Cabo Verde. We are building a compact in Morocco 
that has land reform at the center of it.
    We are, as you mentioned, looking at a second investment in 
the Philippines. We are in the very early stages of that. We 
will be guided, of course, by the economic analysis. But I 
commit to you that if land is an issue in the Philippines we 
will take a very careful look at it.
    Chairman Royce. But wait a minute. We have been working on 
this for 3 years now. We have taken two trips down there. We 
have had this happen in the middle of the typhoon.
    We have had this happen on an ongoing basis with respect to 
people's inability to access their property. Having already had 
this compact in place, my point is these are discussions--as I 
said, I don't know how high this is on the Embassy's list of 
things to do but the principal impediment to investment there 
is getting this process fixed so that people--and the other 
point I would make is it is a major issue in terms of people in 
the Philippines now who don't have the means of preventing 
well-connected people from routinely doing this.
    As I say, nobody to my knowledge has been charged in this 
process and, frankly, to be on a public road and to hear about 
this and go out there and have a gun waved in your face is just 
an affirmation or an indication of what people are talking 
about is a huge problem that is not being confronted, not being 
reversed.
    Anyway, I will leave you with that. I am out of time. I 
will go to Mr. Engel, and thank you very much.
    Ms. Hyde. Thank you.
    Mr. Engel. Thank you very much, Mr. Chairman.
    Ambassador Lenhardt, I want to ask you a question about 
Ukraine. The chairman and I have gone to Ukraine together. A 
few weeks ago, Secretary Kerry was here before this committee 
and we talked to him about Ukraine. I, and many others, believe 
that we should be aiding Ukraine with--allowing them to have 
weapons to defend themselves.
    But I want to talk about Ukraine's financial stability. The 
United States, along with the European Union, the IMF and the 
World Bank are helping Ukraine remain financially stable with 
rounds of loan guarantees.
    What will the administration and USAID do to help Ukraine, 
including another round of loan guarantees or loans? Do we have 
anything in the--in the pipe now for them?
    Ambassador Lenhardt. Thank you, Mr. Congressman.
    Ukraine is, certainly, a country that we have spent a lot 
of time and, certainly, some of our resources because it is an 
important entity.
    We are doing a lot of work now assisting Ukraine become 
stronger in terms of its government but also from the 
standpoint of supporting civil society and doing as many other 
things to bolster the country so that it is strengthened at a 
time when it is being threatened.
    The loan guarantee specifically--we have secured one or at 
least supported one loan guarantee of $1 billion. Based upon 
the performance of Ukraine to date, it looks very favorable 
that a second billion-dollar loan might be in the offing.
    But from all indications in terms of what Ukraine is doing, 
we feel encouraged by their efforts and, quite frankly, looking 
forward how we can help them become even stronger.
    Mr. Engel. Thank you.
    Let me ask you a similar question. We all know--I was 
driving in this morning and heard again the reports that Assad, 
who we seem to be somewhat cozying up to--I don't know why--has 
apparently dropped some more poison gas on the civilian 
population.
    So we know the crisis in Syria is just horrendous. It has 
displaced more than one half of Syria's population, created 
more than 3 million refugees, and while the United States is 
the single largest global donor of humanitarian assistance to 
help the victims of both Assad and ISIS, much work obviously 
still remains to be done.
    So how will you assure that U.S. assistance gets to the 
Syrian refugees and the internally displaced people in Syria 
and is not intercepted by Assad or terrorist group?
    Ambassador Lenhardt. Thank you, Congressman, for the 
question.
    We are doing a lot of work in Syria. Currently, Syria 
citizens are internally displaced to the tune of about 8 
million--nearly 8 million people, those who refugees in other 
countries--Jordan, Lebanon, Turkey--another nearly 4 million 
people.
    And so the crisis is real. It is the most, at this point in 
time, probably the most significant humanitarian crisis that we 
have in the world. We are reaching out in major ways to help 
the Syrian people with food aid, health and in some cases we 
are providing, you know, learning opportunities for children.
    Mr. Engel. Are they aware--are they aware that this aid 
comes from the United States? When there is food aid does the 
local population understand that we are the ones providing it 
for them?
    Ambassador Lenhardt. Mr. Congressman, yes, they are, and I 
say that because although we don't mark it in a major way with 
our logos and, as many other, perhaps our flag because of the 
situation and the potential to put people in harm's way both 
from the standpoint of those recipient of the aid as well as 
those who are administering the aid, the beneficiaries 
certainly are aware of the fact that America has risen to the 
challenge of helping them.
    The impression that we get from implementing partners is 
that people know where this aid comes from. They are told as 
the aid is being administered, as opposed to putting out big 
flashy sign, because in some cases with ISIL and their 
activities would certainly--there would be retaliation.
    So from that standpoint, I think that the Syrian people who 
are receiving the aid know that America is there helping them.
    Mr. Engel. Let me--let me ask you a quick question about 
health. Most of the world has been rightfully focused on Ebola 
in West Africa.
    But I think it is also important to state and remember that 
millions of people around the world die each year from other 
terrible contagious but treatable diseases like tuberculosis 
and HIV/AIDS.
    So I was disappointed when I looked through the 
administration's proposed budget. There's a proposal to cutting 
bilateral tuberculosis funding by $45 million, which is a 19-
percent cut from Fiscal Year 2015.
    Can you comment on that, and if this proposal moves forward 
can you elaborate on how this substantial cut in funding would 
be implemented?
    Ambassador Lenhardt. Thank you, Mr. Chairman.
    The request for 2016 is actually overall a plus-up of $66 
million and so it becomes a matter of working within a 
constrained environment, setting priorities as to how much we 
can do, and we have set as the principal focus for our global 
health preventing child and maternal deaths.
    The second is to respond to infectious diseases and, 
certainly, a third priority would be figuring out how we can 
extend as much as possible our efforts around the globe. The 
point of TB it is--it is a disease, certainly, that is 
problematic but it is not something that we have forgotten.
    The $66 million plus-up for global health is determined or 
at least aimed at helping as many opportunities as we can. 
Child and mother--maternal mortality can be reduced by as much 
as 13--saving 13 million children and saving 600,000 mothers.
    And so my point is that we don't necessarily are neglecting 
the treatment of tuberculosis as much as we are putting the 
resources where they can do the most good, if that makes sense.
    And I know I am a bit rambling on that but I am trying to 
get across the fact that constrained resources create an 
opportunity for us to prioritize.
    Mr. Engel. Thank you. We can talk after the hearing or----
    Ambassador Lenhardt. Sir, I would like to do that--come 
back to you.
    Mr. Engel [continuing]. So I understand that. Thank you.
    I just want to, before I go off, again, thank Ms. Hyde for 
her help with Kosovo. It is very important. And let me just 
say, the MCC was created to be a different type of foreign 
assistance model and complement other foreign assistance tools 
in the USG tool.
    Could you tell us what--where you feel the future is for 
the MCC and what you feel you have done?
    Ms. Hyde. Sure. Thank you for the question, Congressman.
    I appreciate the question and I appreciate your remarks on 
Kosovo. We are committed to working with your team to get us to 
a place where Kosovo can be evaluated in tandem with other 
nations.
    MCC was created as a different model of foreign assistance 
and it is unique in many ways. It is highly focused on select 
countries that are relatively well performing in governance.
    It has, over the years, created what is known as an 
incentive effect--the MCC effect. What we see is that countries 
are changing their laws just in an effort to receive MCC 
assistance before any taxpayer money is spent. That sort of 
incentive structure is certainly true and we have seen many 
examples of that in Africa.
    I mentioned one country in my testimony, Cote d'Ivoire, 
that changed its entire family code in an effort to pass the 
scorecard.
    So the scorecard has been a powerful tool for incentivizing 
good governance and I think moving forward is something, as we 
look to go into regional work as the chairman mentioned, we 
absolutely have to be true to those eligibility requirements 
and to the model on which this is based.
    It has also been a leader in data and transparency and 
taking the information and the decisions that we make, 
evaluating them strenuously and putting them out for all of us 
to learn, and we have learned lessons over the decade as to 
what investments were working and not working.
    It is catalytic in the way that I think we mentioned around 
private investment. So MCC is looking, by definition, at what 
is the barrier to growth, with an economic team, and looking to 
invest to overcome those barriers.
    We are also looking at the regulatory environment, the 
policy environment in particular sectors. Here, Ghana is an 
example. As part of our investment we are asking the Government 
of Ghana to undertake really hard reforms in the energy sector 
that will help make that sector more sustainable.
    Chairman Royce. Okay. We are going to go to Ms. Ros-
Lehtinen of Florida, chairman of the Subcommittee on Middle 
East and North Africa.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman. Welcome 
to you both.
    Ambassador, the United States has contributed over $3.5 
billion in humanitarian assistance since the start of the 
Syrian conflict and the President is now seeking an additional 
$1.6 billion for these efforts for Fiscal Year 2016 alone.
    But we must ensure that we are being as efficient and as 
effective as possible with that aid. Seventy-two percent of 
that aid that we have provided thus far has been routed through 
U.N. agencies and U.N. initiatives.
    My concern is that once this money goes to the U.N. we lose 
our oversight into what is actually being done with that 
assistance, which is why I was joined by Congressman Deutch, 
Mr. Connolly and Mr. DeSantis last month in requesting a GAO 
report on our Syria humanitarian assistance.
    What mechanisms do we have in place to ensure that the aid 
that we send through the U.N. gets to the intended recipients 
and does the administration have a humanitarian response 
strategy that is distinct from the ISIL strategy, and if so 
what is it and if not, why not?
    Moving to Afghanistan, sir, we learn from SIGAR's 
Supplemental Report released on February 27th that State and 
USAID only responded to three of SIGAR's 24 questions by the 
deadline that was December 29th, and as of the report's release 
14 questions still have not been answered.
    This isn't the first time that we have had an issue with 
State and USAID stalling or not getting answers to SIGAR as 
well as GAO. Where is State and USAID in answering these 14 
questions and what would SIGAR and GAO say if we called them up 
right now for an assessment?
    On the Palestinian issue--on April 1st, the Palestinians 
will officially be members of the International Criminal Court, 
the ICC, and in my view that has already triggered U.S. law to 
cut off funding.
    While the administration has indicated that it does not 
believe that the PA's actions triggered the suspension of U.S. 
aid, it has said that a review of aid to the Palestinian 
Authority is underway.
    What is the current status of the third tranche of 
outstanding aid to the PA and what is new with the review? And 
lastly, though, the President's budget request includes $20 
million for democracy assistance to Cuba.
    I worry that the administration's normalization effort 
might signal the end of our efforts to promote democracy and 
governance on the island and, indeed, throughout the Western 
Hemisphere.
    I am concerned about the track USAID is taking with regard 
to closed societies, especially those impacting our region. In 
Venezuela, for example, many of us have been advocating for 
years that the people of Venezuela need more democracy and 
governance funds.
    Yet, the administration still does not give Venezuela the 
attention it desperately needs. Can USAID provide the committee 
with a breakdown on how much aid in the Western Hemisphere is 
specifically going toward democracy and governance programs?
    And then, lastly, for Ms. Hyde, MCC is in the middle of 
implementing a $277 million compact with El Salvador awarded 
because of that country's supposed commitment to political 
rights, to the rule of law, to control of corruption.
    This is despite widespread concerns over El Salvador's 
March 1st election, the results of which have still not been 
announced. Will MCC suspend El Salvador's compact if elections 
there are determined not to have been free and fair? 
Ambassador?
    Ambassador Lenhardt. Thank you, Congresswoman. You have 
given me quite an interesting plate here and see if I can take 
them in order.
    To begin with, our support to various communities and 
refugees and other humanitarian programs around the world we 
continually assess those programs. We evaluate the 
effectiveness of those programs.
    We have mechanisms in place to determine how well those 
programs are being carried out. We use a tiered effect and 
tiered operation opportunity to determine how effective the 
programs are on the ground. Personnel are implementing, 
partners provide feedback as to how the program is being 
executed.
    We do so by third party independent contractors who go out 
and assess or, if we have the opportunity ourselves, using our 
Foreign Service officers, the civil servants, to see what is 
happening on the ground. And so there is a process by which we 
check on the effectiveness of various programs.
    Chairman Royce. General, I am going to--I am going to make 
a suggestion here. It will make it easier on you, too.
    Why don't we--why don't we respond in writing to those 
questions, and I think that would be the most efficient and I 
will remind members just to allow our panelists time to respond 
to their questions.
    We will go to Mr. Gregory Meeks of New York, ranking member 
of the Subcommittee on Europe.
    Mr. Meeks. Thank you. Thank you, Mr. Chairman.
    Mr. Ambassador, Ms. Hyde, thank you for your testimony. You 
know, I just came back from Asia and I am one who believes in 
the President's agenda with reference to TPP and the importance 
of international trade.
    But one of my pet peeves has always been in any trade 
agreement is what are we doing with reference to trade capacity 
in development, particularly how does trade promotion and how 
can that assist the most vulnerable especially in developing 
countries and where there is minority populations and Afro-
Colombian communities.
    So in this year's budget for the MCC and the USAID, is 
there any plan--what is planned for trade promotion and for the 
inclusion of these communities in trade benefits so that 
everyone can benefit from the bottom up and not just from the 
top down?
    Ms. Hyde. Thank you, Congressman. I appreciate the question 
very much.
    At MCC we do think trade capacity is a core component of 
economic growth and we have worked over the portfolio, over $10 
billion, in a number of investments that are trade capacity--
infrastructure investments, obviously, building roads, 
facilitating ports and the like, and depending upon the 
estimate one thinks roughly half are depending upon the 
definition of trade capacity, roughly half of our portfolio has 
been committed in that area. That said, we are looking forward 
to see what we can do more on trade capacity building and 
certainly see what we could do more to reach out to American 
businesses.
    So later this year, we will be leading the MCC's first ever 
trade mission with business leaders to Africa. This came out of 
the AGOA Summit last summer.
    We will be doing more of those to purposefully present the 
opportunities that our investments make themselves but in and 
around our investments if we are bolstering capacity.
    We are also doing a second thing which is we start with a 
constraints to growth analysis--economic analysis. We are 
integrating into that analytical tool trade capacity 
specifically so that more of our investments will be oriented 
in that way.
    Ambassador Lenhardt. Thank you, Congressman.
    One of the efforts we have is a major program, Trade--in 
addition to Power Africa but it is also Trade Africa--focused 
on trade and how do we extend, how do we cause a proliferation 
of trade opportunities for American businesses.
    This program is specifically in Africa but I would share 
with you that it is happening in other places around the world 
in terms of our focus on trade.
    Trade becomes the one tool that anything we have the 
opportunity to connect with countries both for their own 
prosperity and security as well as our own and an opportunity 
for American businesses to certainly become available and use 
the technology that they offer to many of these countries.
    I will give you an example in Tanzania. As the Ambassador 
to Tanzania, I was very active in encouraging American 
businesses to come to Tanzania and in fact we were able to 
bring about the necessary reforms in Tanzania where the 
government itself began to use the phraseology ``Tanzania is 
open for business.''
    And in those countries--companies, rather, that came to 
Tanzania, they flourished. They did very well. Some of the 
companies--IBM, John Deere and as many others who came and, by 
the way, small businesses as well.
    Mr. Meeks. Well, on that let me--let me ask because of the 
small business. What has also played a significant role is 
micro finance----
    Ambassador Lenhardt. Yes.
    Mr. Meeks [continuing]. In those areas and reducing poverty 
in these emerging economies, these micro--and often these small 
investments, you know, they leverage other opportunities in 
these communities.
    So can you just tell me what USAID and then also in the 
time I have left I have another question that I guess I could 
ask and just have it--you respond to me.
    The MCC proposal do you provide funding and support for 
these efforts and any new initiatives to reach vulnerable 
groups and attract other funds including American investment. 
And here I am specifically interested in efforts in Africa and 
USAID and MCC projects.
    So if you could answer that, and then probably to answer I 
am also concerned about the lack of dollars and spending in 
regards to democracy promotion.
    It has fallen by 38 percent since 2009, hit a low $1.4 
billion in 2014 and furthermore the number of countries where 
USAID operates dedicated to a democracy program has fallen from 
91 to 63.
    So maybe in writing you can respond to me on that. But can 
you answer my second question in the 14 seconds I have left?
    Ambassador Lenhardt. Thank you, Mr. Congressman.
    I will conclude by saying that USAID has been pivotal in 
shaping the micro finance industry, particularly by 
transforming it into a market-driven model that attracts 
private investors, companies who bring to the table their own 
capital and so from that standpoint we are looking to see how 
we can explore, how we can do more.
    Interestingly enough, in those cases where we are putting 
out micro financing, women do very well and, by the way, as my 
experience in Tanzania, not only did they bring about the 
activity that they were embarked on, farming generally, but 
they also paid back the loan.
    Mr. Meeks. Ambassador, I am out of time.
    Ms. Ros-Lehtinen. Thank you so much.
    Mr. Meeks. So I would love to get your response in writing 
and also let me talk to you about Haiti.
    [The information referred to follows:]
  Written Response Received from the Honorable Alfonso E. Lenhardt to 
  Question Asked During the Hearing by the Honorable Gregory W. Meeks
    USAID has been a leader in the Democracy, Human Rights and 
Governance (DRG) sector for many years, defending human rights and 
civil society and strengthening sound democratic institutions around 
the world.
    It is true that USAID's spending for democracy, human rights and 
governance has dropped by over a third since FY 2009. At the same time, 
over half of this decline has resulted from the evolution of programs 
in just three countries: Iraq, Afghanistan and Pakistan. It is the 
other half of the budget decline that has impacted our democracy, human 
rights and governance programs in the rest of the world, particularly 
in Africa. This is our greatest present challenge.
    USAID has already begun to act: it has made modest but important 
increases in its FY 15 budget, and the President's FY 16 budget 
includes substantial increases in requests for democracy, human rights 
and governance for USAID. For FY 2016, the Administration has requested 
$2.9 billion for global DRG assistance, an increase of nearly $1.0 
billion over the FY 2014 enacted level.
    While we are working to address the budget challenges of recent 
years, we are also pursuing a more integrated approach to development, 
making DRG a critical element to all development programs. Only through 
respect for human rights, civic engagement, and accountability of 
public officials will development gains in health and education, for 
example, be sustainable over the long-term.
    Despite the challenges to its budget, USAID has been and will 
continue to be a leader in supporting the President's national security 
policy on human rights and democratic governance. USAID has been an 
active member of the Atrocity Prevention Board and has pioneered the 
training of USG field officers in this area. We have provided important 
support to the Open Government Partnership, through which almost 70 
countries have committed to implementing concrete actions in the area 
of transparency and anti-corruption. USAID is also a key player in 
President Obama's Stand with Civil Society initiative, which is 
addressing authoritarian encroachments on political space around the 
world. In addition, the Agency has developed new guidance for our 
programs in closed spaces. And USAID is an inter-agency leader in 
shaping a more comprehensive USG approach to addressing conflict, 
fragility and violent extremism. In carrying out these initiatives, 
USAID has leveraged significant funding from other public and private 
donors. For example, we have raised $50 million of external funding for 
its Civil Society Innovation Initiative and $40 million for its Grand 
Challenge on Making All Voices Count.
    In addition, during this Administration USAID has issued a new 
strategy on democracy, human rights and governance. The new strategy 
codifies a more holistic approach to our programming in this sector by 
focusing on participation, inclusion, and accountability, while 
elevating human rights and integration of programming across economic 
and social sectors. All of these efforts come on top of our continuing 
work in areas such as electoral support. For example the support that 
USAID provided to Nigeria's recent election--assistance to the 
electoral commission, political parties, and NGO monitors--was a key 
factor in Nigeria's historic transition of power. All of these examples 
speak to the important work that has been carried out despite the 
budgetary challenges.

    Ms. Ros-Lehtinen. Thank you very much, Mr. Meeks.
    And now we turn to Mr. Rohrabacher, the chairman on the 
Subcommittee on Europe, Eurasia, and Emerging Threats.
    Mr. Rohrabacher. Thank you very much.
    I would like to identify myself with what Mr. Meeks just 
brought up on in terms of the importance of micro finance as 
compared to--even comparing that to the bigger loans and the 
more substantial financial dealings that we seem to be involved 
with.
    Also, I would like to identify myself with the remarks of 
Chairman Royce in terms of the concern about title and actual 
ownership--the legal basis of this. Establishing micro loans 
and looking for title and ownership rights is actually a low 
cost way of achieving great things, and just a thought there.
    Let me just note that with that and with the concern Mr. 
Royce has expressed today we also need to make sure that those 
governments that are engaged with stealing property, especially 
from American citizens, do not benefit by the benevolence of 
our Government.
    Specifically, the Government of Ethiopia, which there is a 
family in Orange County in which Chairman Royce and myself are 
familiar--with an immigrant family from Ethiopia whose property 
has been stolen and the Ethiopian Government refuses to not 
only return--not return it but not offer any type of just 
compensation whatsoever.
    So I would hope in the millennium the MCC does not provide 
Ethiopia or other governments like it that steal property from 
Americans that we offer them sort of some loan guarantees, et 
cetera.
    The--in terms of the overall program in terms of America's 
assistance, I would prefer to see a program--an assistance 
program aimed more at emergencies and disasters rather than 
economic development.
    When people are in tragic and horrible situations, we as 
human beings need--there is a moral obligation for us to reach 
out and help them and as we see that in the Middle East today.
    So I would hope that those millions of people, especially, 
for example, in the Middle East where--and the Kurds are taking 
in 1 million or more--1\1/2\ million people, which they have 
very little budget.
    Let me ask Mr. Ambassador, is--are we providing direct aid 
to the Kurds now or does all of this have to go through Baghdad 
which, of course, is ruled by Baghdad government which is ruled 
by people who think of the Kurds as an adversary?
    Ambassador Lenhardt. Thank you, Mr. Congressman, for the 
question.
    We are providing assistance to people who need it without 
regard to whether or not it is in a direction fashion to the 
Kurds or, for that matter, that it is funneled through----
    Mr. Rohrabacher. Maybe I will go directly--does our aid 
that goes to--that eventually ends up with the Kurds do we have 
to ship that through Baghdad first? Does that have to be 
approved by Baghdad before we are permitted to give that direct 
assistance? That could be a yes or no question.
    Ambassador Lenhardt. I will come back to you on that 
question. I don't have all the details, Congressman.
    Mr. Rohrabacher. Thank you, General.
    Ambassador Lenhardt. So I will come back to you.
    Mr. Rohrabacher. I would appreciate that.
    [The information referred to follows:]
  Written Response Received from the Honorable Alfonso E. Lenhardt to 
  Question Asked During the Hearing by the Honorable Dana Rohrabacher
    U.S. humanitarian assistance is not channeled through government 
(central or regional) authorities in Iraq. U.S. government humanitarian 
assistance in Iraq is delivered on an impartial basis by trusted 
partners, including United Nations (U.N.) agencies, public 
international organizations such as the International Committee of the 
Red Cross and the International Organization for Migration, and NGOs. 
The U.N. coordinates the international humanitarian effort in Iraq, 
under the leadership of the Deputy Special Representative of the 
Secretary-General, Resident Coordinator and Humanitarian Coordinator, 
Lise Grande. To ensure the most effective response and to avoid 
duplication of efforts, the U.N. coordinates with relevant government 
bodies such as the Joint Monitoring and Coordination Center in Baghdad 
and the Joint Crisis Coordinating Center in Erbil.
    The U.S. government has provided nearly $220 million for 
humanitarian assistance to Iraqis in the region since the start of 
Fiscal Year 2014. Of the nearly $220 million, USAID has provided $29.74 
million; the State Department's Bureau for Population, Refugees and 
Migration $182.3 million; and the Department of Defense contribution of 
$7.5 million.
    U.S. government humanitarian assistance is focused on the provision 
of food and other relief commodities, shelter (including repairs), 
water and sanitation, health care, protection (including specialized 
services for women, children, and survivors of sexual and gender-based 
violence), and humanitarian coordination and logistics. Rather than 
being targeted to particular communities or locations, U.S. 
humanitarian assistance is provided on a country-wide basis, and 
focused on the populations in greatest need who can be reached by our 
humanitarian partners. Currently it is too dangerous for many relief 
organizations to work in ISIL-held areas, therefore, the majority of 
U.S. humanitarian assistance is concentrated among Iraqi internally-
displaced persons and Syrian refugee populations in the north, center 
and south of the country.
    Despite the ongoing strong support by the United States to 
vulnerable Iraqis, tremendous needs remain. We regularly urge other 
donors to contribute generously to the U.N. appeal for Iraq, and we 
continue to press the Government of Iraq to support its displaced 
citizens.

    Mr. Rohrabacher. Let us just note when we talk about--I 
just came back from Egypt where they have a tremendous effort 
that is going on with many other countries to help build an 
economy. We should be very grateful for that.
    And in terms of one last note about Pakistan, we have been 
giving--we have given over $28 billion of assistance of one 
kind or another over the last 15 years to Pakistan. I 
understand next year's list is about $500 million.
    I am wondering are we still going to be giving this money 
as we--when we read reports where just yesterday a Christian 
community church was blown up and 15 Christians were murdered, 
where we see thousands of innocent people being murdered in the 
Kurdistan region of Pakistan.
    Are we going to continue giving Pakistan that money even as 
it imprisons Dr. Afridi, the man who helped us bring to justice 
the man--the people who slaughtered 3,000 Americans on 9/11?
    Are we going to--when are we going to wake up and realize 
that the Pakistani Government is engaged in activity that 
actually murders Americans, murders their own citizens and is 
involved with religious persecution? Anybody want to tackle 
that?
    Ms. Ros-Lehtinen. Thank you, Mr. Rohrabacher, but time is 
up, and they will get to you in writing.
    Dr. Bera, your time is----
    Mr. Bera. Thank you.
    Last week, under the leadership of Chairman Royce we had a 
chance to visit some of the--your staff, Ambassador, on the 
ground in India. We visited the Vivekananda slum outside of New 
Delhi where some of your staff is working on clean water and 
sanitation efforts.
    Doing a great job, by the way. Incredibly important work in 
the sense of helping plan out a community, helping, you know, 
put something as simple as toilets into a slum of, you know, 
thousands of individuals.
    Why this is incredibly important, as we are thinking about 
empowering women and girls, as we are looking at safety, you 
know, something as basic as giving them a place to go use the 
restroom and privacy has dramatic effect.
    So, again, I just want to compliment your staff for what 
they are doing out there. This is an incredibly important area 
to me as we look at maternal-child health and women's 
empowerment around the world.
    I am glad that I do see an increase in the budget request 
of about 8 percent in USAID's budget. What I am curious about 
is, you know, specific efforts on women's empowerment, specific 
resources that are going to empower women and then, you know, 
specific efforts on family planning and reproductive health in 
the budget priorities, if you can briefly talk about that or--
--
    Ambassador Lenhardt. Thank you, Congressman, and thank you 
also for taking the time to visit India and seeing on the 
ground first hand some of our work that is underway.
    The support to India, and I can take it from the top--the 
macro level--the strategic partnership is very important to us 
and as we think about our shift to Asia and the support there, 
India is a very important partner and besides being the 
largest, you know, democratic democracy in the world.
    Specifically as it relates to women, we have a number of 
programs aimed at empowering women, starting with basic 
education, creating an environment where women have the 
opportunity--girls have the opportunity to learn, to grow and 
eventually make a major contribution to their country and their 
families and many other things.
    We also look at women from the standpoint of how do we 
protect them, how do we ensure that they are not victims of, in 
the case of India as was reported in the news recently, violent 
rapes and other assaults.
    And so our programs are aimed at securing women, girls as 
much as possible, keeping them protected from gender-based 
violence as well as thinking about girls who are being forced 
into early marriages. And so all of these efforts are aimed at 
empowering women, keeping them safe.
    You saw some of that when you were on the ground, and so we 
feel confident that this is working for us but more work has to 
be done. And so it is a--it is a constant routine for us to 
reach out to empower girls.
    Mr. Bera. Right. So let us continue to maintain a focus 
and, certainly, this office will continue to work there.
    On the U.S.-India relationship as well, as we build 
momentum USAID is also launching a very innovative program, the 
Diaspora Bonds, which I think is the first of its type of 
program. Again, it is in the very early phases.
    But it is to encourage the Indian-American diaspora to 
invest in India and, you know, I would be curious to get your 
sense on that and any specifics about that program.
    Ambassador Lenhardt. I would have to come back to you. The 
details of that, Congressman, I don't have that at hand. But I 
will say that working with any diaspora is very important 
because they have a voice.
    They, certainly, have an opportunity to encourage and 
supporting financially in many cases the country and, 
certainly, the issues that are present in India. And so I will 
have to come back to you with the specifics as to the program.
    [The information referred to follows:]
  Written Response Received from the Honorable Alfonso E. Lenhardt to 
      Question Asked During the Hearing by the Honorable Ami Bera
    USAID's Indian Diaspora Investment Initiative (IDII) enables U.S. 
investors, particularly the Indian American diaspora, to support the 
expansion of social enterprises (businesses that tackle poverty) across 
India, working in sectors including agriculture, education, energy 
efficiency, healthcare, and water and sanitation.
    U.S. investors (including the Indian American diaspora) will be 
able to purchase a ``Diaspora Investment Note,'' issued by the Calvert 
Foundation, a social impact investment fund. The Calvert Foundation 
will pool this capital and lend it to multiple partners (with strong 
track records of supporting social enterprises) which will use the 
proceeds to lend to small- and medium-sized social enterprises 
operating in USAID's target sectors in India. Once the social 
enterprises repay their loans, the partners will repay the Calvert 
Foundation, which thereafter will repay investors their principal plus 
nominal interest.
    A key component of the IDII is an innovative USAID Development 
Credit Authority (DCA) partial credit guarantee of the loans from four 
Indian financial institutions (two banks and two non-bank finance 
companies) to small- and medium-sized social enterprises operating in 
USAID's target sectors in India. DCA partial credit guarantees reduce 
the risks of lending, thereby helping financial institutions lend to 
underserved sectors aligned with USAID's development objectives.
    The goals of this innovative and cost-effective initiative include 
1) increasing access to finance for social enterprises operating in the 
target sectors in India, 2) providing a systematic pathway for the 
Indian diaspora to invest in the development of their country of 
origin/heritage, and 3) unlock sources of capital beyond USAID's grant 
resources through a credible investment vehicle.
    President Obama announced the broader IDII in January 2015. USAID 
anticipates that the related DCA partial credit guarantee will be 
signed by all partners by September 2015 and the Calvert Foundation 
Diaspora Investment Note will be issued later in the year.

    Mr. Bera. Great. There is a relatively new program that was 
just announced by the President in January when he visited 
India and, again, it is to leverage a diaspora that has done 
every well here in the United States and empower them to invest 
the resources through these bonds to, again, help some of the 
social impact programs that, you know, specifically in this 
case in India.
    It looks like my time is up and, again, thank you both for 
the work that you are doing.
    Ms. Ros-Lehtinen. Thank you, Doctor Bera.
    And now we will turn to Mr. Scott Perry, Pennsylvania.
    Mr. Perry. Thank you, Madam Chair. Thank you, ladies and 
gentleman, for being here today.
    Ambassador, thank you for your service. I am wondering--the 
Fiscal Year 2016 budget request provide the OIG $63 million 
increase, an increase of over 16--of 16 percent over Fiscal 
Year 2015.
    Can you explain in light of that why--succinctly, if you 
can, why the inspector general position has not been filled--
there is no nominee--1,200 days? If you can explain, what is 
your perception? What is happening? What is the problem?
    Ambassador Lenhardt. Thank you for the question, 
Congressman.
    I don't think it is a question of anything that is short of 
the fact that the search is underway.
    Mr. Perry. Twelve hundred days? I mean, what about the 
acting inspector general? Is that person not qualified? I mean, 
how many days is appropriate?
    Ambassador Lenhardt. That I can't respond to specifically 
as much as to say that the function of the Office of the 
Inspector General goes on. The work continues, the oversight, 
the--certainly, the opportunity for our programs to get 
reviewed, that is taking place.
    Mr. Perry. Sir, I can appreciate that. But 1,200--to me, it 
is inexcusable and maybe it has absolutely nothing to do with 
you. I suspect that is the case.
    But you must understand the American people demand 
accountability, and while the work goes on there is not one 
single person at the top that can really be focused upon for 
the failings, and there are failings and they might not have 
anything to do with you.
    But it just shows to me a lack of commitment to the 
oversight of a lot of money and in the face of large request it 
seems antithetical.
    But let me--let me move on to why I think there needs to be 
more oversight. There have been some reports that the money in 
Gaza for reconstruction some has been diverted to continue the 
construction of tunnels by Hamas. Is there any truth to this? 
Do you know of any?
    Is there any truth to that other than reports and has the 
money that USAID spent in Gaza in the past has any of that been 
used for the making of tunnels--the construction of tunnels by 
Hamas?
    Ambassador Lenhardt. Thanks for the question, Congressman.
    The answer is no.
    Mr. Perry. To which one? Both?
    Ambassador Lenhardt. No. No to the fact that tunnels--money 
for building tunnels, that is not something that I am aware of 
that is taking place.
    Mr. Perry. Okay. You are not aware of it but you don't know 
that--you are not aware of it. So there is no proof at this 
point. It could be happening but you are not aware?
    Ambassador Lenhardt. I am not aware of.
    Mr. Perry. Okay.
    Ambassador Lenhardt. In fact, I would be very surprised 
that that is happening and in fact, again, I mentioned earlier 
that we have mechanisms to check on the progress of programs 
and so none of that has come to our attention at this point.
    Mr. Perry. Can I get a list of the projects that USAID has 
funded in Gaza and how much money has been spent on each 
project and what the status is of those projects?
    [The information referred to follows:]
  Written Response Received from the Honorable Alfonso E. Lenhardt to 
     Question Asked During the Hearing by the Honorable Scott Perry
    Since the onset of the July-August 2014 conflict in Gaza, the 
United States has committed $231 million in humanitarian assistance to 
Gaza. This assistance has been provided to established United Nations 
and non-governmental organizations, including the United Nations Relief 
and Works Agency (UNRWA), the World Food Program, the United Nations 
Development Program, UNICEF, the International Committee for the Red 
Cross, and others, to provide urgently needed humanitarian relief 
(water, food assistance, and hygiene and medical kits) and meet 
immediate needs such as psychosocial support for children and families 
and rubble removal. We are not currently aware of any reports that U.S. 
assistance for humanitarian aid in Gaza, including reconstruction, has 
been diverted for other purposes. The United States takes very 
seriously any reports of diversion of its assistance, and we have long 
required our partners in Gaza to take appropriate steps to prevent U.S. 
funding from being diverted for non-intended purposes.
    Consistent with statutory requirements, USAID has appropriate 
procedures in place to ensure that Economic Support Fund (ESF) 
assistance for the West Bank and Gaza is not provided to or through, or 
diverted to, any individual or entity that is known to be involved in 
or advocating terrorism, including Hamas. USAID's vetting process 
checks non-U.S. individuals and entities within certain thresholds 
against law enforcement and intelligence community systems prior to 
local prime or sub award issuance. Worldwide, USAID requires grantees 
to sign its Certification Regarding Terrorist Financing in order to 
receive funds. In the West Bank and Gaza specifically, the annual 
Appropriations Act requires annual audits of all USAID direct awardees, 
as well as an annual Government Accountability Office audit of the use 
of all ESF assistance.

    Ambassador Lenhardt. Congressman, yes, you can get that 
list but I will tell you that the work that is being done is 
humanitarian assistance. It is providing food aid. It is 
providing water. It is providing health----
    Mr. Perry. I understand, but I want to make sure that all 
of the money is going to those programs and none of it is going 
to tunnel construction by Hamas.
    That is what--that is what I am trying to ensure without--
with all due respect, without an IG present I am concerned that 
some of that is slipping through the cracks.
    But moving on, getting to what Ms. Ros-Lehtinen was talking 
about regarding the Rome Statute and the Palestinian Authority, 
I am curious to know what will happen to funding in Gaza to the 
PA if they pursue criminal--war crimes charges against Israel.
    Do you see that as an issue that will--that will trigger a 
reduction in funding or a conversation of a prohibition of 
funding or is that not relevant to the conversation?
    Ambassador Lenhardt. Thank you for the question.
    I think all of that is relevant and at this point in time 
we are reviewing----
    Mr. Perry. So if they pursue war crimes against Israel, 
what do you do? What can we expect from you?
    Ambassador Lenhardt. War crimes against Israel--sir, I 
can't answer that question in a way that would----
    Mr. Perry. If it has an impact on your funding, on the 
funding of USAID--what the Palestinian Authority and Hamas does 
in the International Criminal Court, understanding Hamas is 
recognized terrorist organization, if they pursue war crimes 
against Israel are you telling me it will have no effect on the 
funding----
    Ambassador Lenhardt. No.
    Mr. Perry [continuing]. From the United States Government 
to the Palestinian Authority?
    Ambassador Lenhardt. Congressman, I am not saying that at 
all. I am saying that at this point in time that because of the 
last several weeks and months, the Fiscal Year 2016 request is 
under review with respect to our continued support to the 
Palestinian Authority, and so that is happening. But answering 
a hypothetical at this point I cannot provide that to you.
    Mr. Perry. I understand. Thank you for your time.
    Ms. Ros-Lehtinen. Thank you very much.
    And now we turn to my good friend, Mr. Ted Deutch, the 
ranking member of the Middle East and North Africa 
Subcommittee.
    Mr. Deutch. Thank you, Madam Chair.
    Ms. Ros-Lehtinen. Nice hairdo.
    Mr. Deutch. Thank you very much.
    Welcome to our witnesses. Appreciate your being here in 
your new capacity and commend the good work that both of you 
do.
    As ranking member of the Middle East and North Africa 
Subcommittee, I have been particularly focused on the 
humanitarian challenges stemming from the complex crises in the 
region, in particular, Syria.
    We are now more than 4 years in. There is no end in sight 
and the humanitarian crisis grows larger every day, and as we 
know, even if there was a political solution tomorrow, even if 
Assad left tomorrow, the humanitarian crisis would continue for 
years.
    With 12.2 million people in need of assistance both inside 
and outside of Syria and the daunting task of assisting the 
growing needs in Iraq as ISIS forces wreak havoc on towns and 
villages, forcing civilians to flee, the United States has 
stepped up.
    We have played the largest role as humanitarian donor, $3 
billion already spent. The budget request this year includes 
$1.6 billion for humanitarian needs in Syria and Iraq.
    And my question, Ambassador Lenhardt, first, to you is what 
is the ability of USAID partners to operate in regime-
controlled areas of Syria and what is their ability to operate 
to the extent there is any in ISIS-controlled areas? What is 
the status of these besieged communities?
    Ambassador Lenhardt. Thank you for the question, 
Congressman.
    I would, first, say that people who operate in these 
areas--conflict areas--are doing so because they are motivated, 
because they feel they can make a commitment to something 
larger. They are, in many cases, heroes and heroines and so we 
applaud what they are doing across the board.
    With respect to our emphasis on safety, we continually talk 
about safety. We ensure that they are--by causing them to be 
situationally aware of what is going on or in and around the 
areas where they operate it is the kind of thing where, quite 
frankly, we are concerned about, certainly, the danger but 
these people rise to the top.
    They come fore--to the fore and implementing partners are 
doing the work that, quite frankly, needs to be done in 
threatening environments. We are providing aid to the Syrian 
refugees as well as internally displaced people at a time when 
others perhaps would not. But those people out there--the 
courageous folks are doing that day in and day out.
    Mr. Deutch. They do, and they are courageous, and if you 
would pass on our sincere thanks to them for the work that they 
do.
    Ambassador Lenhardt. Thank you.
    Mr. Deutch. I am--I want to just shift gears in the 
remaining time I have and talk about--just follow up on an 
exchange that you had with Dr. Bera on the issue of girls and 
women and empowering girls and educating girls--the issue of 
gender-based violence, forced marriage, and we know that the 
impact that it has throughout the world.
    But the question I have is if, I think--Ambassador 
Lenhardt, I will ask it differently but the issue is, you know, 
we are considering a piece of legislation that I don't expect 
you to comment on.
    But the International Violence Against Women Act would 
officially create an Office of Global Women's Issues so that we 
can have someone in the administration at the ambassadorial 
level to focus on these issues every single day.
    This is an issue that, as far as I am concerned, should not 
be controversial. My question is not for you to comment on the 
legislation but to just let us know if it would--the extent to 
which it is helpful to have someone at that level as an ally 
for the work that you do, Ambassador Lenhardt, and Ms. Hyde, in 
your case to the extent that countries express interest in 
these gender equality issues and want to make that a part of 
what they do with you.
    Again, what would it be like to know that you have got that 
ally, going forward?
    Ms. Hyde. Thank you, Congressman, for the question.
    I can certainly speak from my own experience at the State 
Department which is a fantastic instrument and tool of American 
diplomacy and is organized in a way that has both regions and 
functions.
    And one of the perennial challenges is to integrate issues 
across the globe and I think the position that you described, 
and I saw this first hand, is how we can take that effort and 
not just make it a siloed effort of women and girls but, 
rather, how do we put it in both the regions and the functions 
from humanitarian assistance to economic development and the 
like.
    So that, from my own experience, was an effective approach 
to that. We work closely with that core group, and I will say 
at MCC we have country teams. For every country we work with 
there is an economist on the team, there is an M&E person on 
the team and there is a social and gender person on every team. 
So we matrix it that way.
    Mr. Deutch. Thank you.
    Ms. Ros-Lehtinen. Thank you so much. Thank you, Mr. Deutch.
    Dr. Yoho of Florida.
    Mr. Yoho. Thank you, Madam Chairman. I appreciate it. I 
appreciate you two being here.
    I am looking for answers or solutions. I want solutions, 
because there is a lot of questions and with the money that the 
American taxpayers have put in to foreign aid, and we hear all 
kinds of numbers--it is less than 1 percent.
    But when the military goes into Afghanistan or Iraq and 
builds roads is that considered foreign aid? Because we don't 
bring those roads back. Somebody is paying for those and it is 
the American taxpayers, and when we look at all this money 
going around the world can you tell me, say, any country, pick 
a country.
    We give $500 million to Pakistan or the Palestinian 
Authority. Does that come out of the money that goes to you or 
does that come out of State Department? Or the money we give--
or the money we give Mexico? Does that come out of USAID or MCC 
or does that come out of the State Department?
    Ms. Hyde. So thank you for the question. I will take a stab 
at it, based upon my experience at OMB but it was in a 
different context.
    Those funds are all part of what is the 150 function. That 
includes assistance that funds MCC, that funds the Peace Corps, 
that funds the State Department and the like.
    Mr. Yoho. Okay. So all that money goes out to you--goes 
out?
    Ms. Hyde. Goes--correct.
    Mr. Yoho. Does it go out as cash, commodity, training, 
equipment or other?
    Ms. Hyde. Oh, I see. I see. So taking the conversation from 
the account structure to the program level, each one of the 
programs--my program in particular--has certain controls around 
those funds.
    I wouldn't speak to USAID but Ambassador Lenhardt can speak 
to the controls around different types of funds. In MCC's case, 
when we partner with a country we have at least five sets of 
controls on disbursements. It starts with we are working with 
countries that are in the upper half of well-governed 
countries.
    Second, we put a fiscal agent and a procurement agent on 
the ground that is an outside entity in every program that we 
have. Third, we oversee a completely open and transparent 
procurement process where we have authority at every step of 
the way before anything is verified as complete.
    Fourth, the funds sit in the U.S. Treasury until we have 
done the verification and then we are paying vendors directly. 
So we are not putting the funds directly to the government.
    And then finally, we maintain a 24/7 hotline, a robust set 
of training----
    Mr. Yoho. Okay. Let me stop you there. Because you talked 
about transparency and accountability. We gave the country of 
Afghanistan $1 billion in 2012--2013, I think it was.
    There was $300 million unaccounted for. So if there is 
transparency and accountability where did our $300 million go 
that we don't know about and who is responsible for that? And 
the person at the top of that organization, if they can't 
account for it, they need to be fired.
    The American taxpayers where I come from want to see that 
happen. And when we give money and we are doing it for 
democracy and human rights and we are promoting all this stuff, 
which I agree--I think it is a great thing--but when we are 
going in there and, as Dr. Bera brought up, we are putting in 
toilets, we are doing, you know, civil law, we are doing these 
in countries that have corrupt governments. How do you do that 
and why is that our responsibility?
    Why is that not the responsibility of that government and 
if we are giving them money, a cookie, and it's a good cookie 
and they want our cookie, why are we not willing to take that 
back if they are not following the procedure if we have 
transparency, if we have accountability?
    Because I hear this story over and over again. I have been 
here for 2 years, going into my third year, second term, and I 
hear the same story over and over again.
    But I don't see the end results, and with all the money we 
have spent over the course of the last, you know, again 1 
percent, $37.8 billion over 10 years--that is $370 billion of 
American taxpayers' money--but yet has the world gotten safer? 
Has our relationships gotten safer around the globe? Ambassador 
Lenhardt.
    Ambassador Lenhardt. Thank you, Congressman.
    I believe our relationships and our security and our 
prosperity has been enhanced as a result of our foreign aid.
    Mr. Yoho. May I stop you there? Because as I get 
Ambassadors that come in from countries all around the world, 
they say when they look at America they don't want us around.
    In Bob Gates' book talking about Pakistan, when they had 
the floods that they came, they took the stuff. There wasn't 
high five and they weren't excited to see the Americans there 
because they don't trust us, and that was when we came in there 
as a humanitarian relief.
    And so we are not--we are missing something as we go out 
and try to do this humanitarian thing and I see us spending a 
lot of taxpayers' money and we are at $18 trillion in debt and 
I don't see where we can afford to give money away when we are 
broke.
    Ambassador Lenhardt. Thank you, Congressman.
    My experience is different both as the Ambassador to 
Tanzania as well as the Ambassador to the East African 
community with four other countries.
    We were loved, and in Tanzania we has a 90-plus percent 
approval favorable rating for the American people in our 
outreach to the Tanzanian people. So my experience is 
different.
    Ms. Ros-Lehtinen. Thank you, Mr. Ambassador.
    Mr. Yoho. Thank you, ma'am.
    Ms. Ros-Lehtinen. Thank you, Dr. Yoho.
    And now another Florida colleague, Ms. Frankel, of Florida.
    Ms. Frankel. Thank you, Madame Chair, and I thank you both 
for being here. I am sorry I was in and out because I have 
another meeting, like many, across the hall. But my son has 
worked for USAID so I have a special place for it in my heart.
    I have a couple of questions, first, having to do with 
women's education. If you would comment on some of the work 
that USAID is doing in regards to women's education and I 
also--I would like to know a little bit about the safety today 
for USAID workers, given what is going on around the world.
    I think we were all concerned. There was recently the death 
of Kayla Mueller who I believe--I don't believe she was working 
for AID but she was working for some other humanitarian 
organization.
    So if you could just address those two issues for me, and 
thank you for what you do.
    Ambassador Lenhardt. Thank you, Congresswoman.
    We do a great deal in terms of training, teaching young 
girls and, for that matter, women and their empowerment. To 
begin with, at any point in time there are significant--
millions of girls who are not going to school and who are being 
victimized in many ways either by gender-based violence or, for 
that matter, forced into early marriages.
    And so our program are designed and are carried out to 
encourage girls to go to school and to work with parents of 
those girls to encourage also the fact that the girls are 
significant.
    They have value, and in places where our programs have been 
allowed and people--parents support it, we are very successful. 
Last week, I attended a program at the White House, Let Girls 
Learn, where the First Lady has taken the opportunity to reach 
out to girls across the world.
    That is a very effective program. We are contributing to 
that--USAID. But more globally, we are contributing to teaching 
children, many of whom are girls, and where girls grow up to 
be--become parents themselves or mothers.
    They, as I mentioned earlier, are involved in taking care 
of the family and creating an environment where their children 
then grow up to become contributing members of their--of the 
country that they--certainly, where they live in.
    And so it is a program whereby girls flourish and they are 
protected. With respect to security of our personnel, we are 
very conscious of that. As I said earlier, we focus our 
activities in ensuring that we either provide the training and/
or the visibility, reaching down with our implementing partners 
as well as our own situational awareness of our own staff to 
ensure their protection, ensure that these locations around the 
world where they operate they are aware of what is happening 
and they can protect themselves.
    Or if the situation--the conflict is so severe then we will 
pull them out and protect them from any further potential harm.
    So that is happening across all of our programs. We 
integrate, by the way, gender in all of our programs so that it 
is not simply teaching but it involves everything that we do. 
Women's issues are very important to us.
    Ms. Hyde. I appreciate the question. I would just highlight 
quickly two areas where MCC is working. First, gender is 
integrated across the programs through our indicators. On our 
scorecard there is a gender in the economy indicator.
    There is also a gender in education subset of the education 
indicator. So we are assessing a country's investment in their 
girls and in education.
    Our programs themselves tend to be more toward the 
vocational end, the nexus to jobs and economic growth, as well 
as a great program that we have in Georgia, for example, which 
is in STEM--science and technology--and it is a partnership 
with San Diego State.
    So that is the area in which we are working. But third, one 
area that I am really excited about is on data. MCC has helped 
take gender data and we have made a commitment as part of the 
initiative that is called Data 2X to release all of our sex-
disaggregated gender data by the end of 2015 and to do more as 
we go forward to collect information about the impact that we 
are having on girls specifically so they are counted, they are 
heard.
    Ms. Ros-Lehtinen. Thank you, Ms. Frankel.
    And now this committee is taken over by Florida. Mr. 
Clawson of Florida.
    Mr. Clawson. Okay. Thank you all for coming today.
    I want to start by saying that when I lived overseas, you 
know, I would bump into folks from USAID and my impression was 
that you had really good people in difficult places trying to 
do difficult things, and although I am always worried about 
accountability, as we should be because you all--this is 
taxpayer money--my personal experience with folks out there 
working in the field is that they do really good stuff under 
really difficult circumstances.
    So please pass along my personal compliments in that 
regard, and I appreciate what you all do. I would like to 
follow up with something that was said earlier about Cuba and 
for you all to give me a sense now that what has happened has 
happened with Cuba.
    And, you know, we are going through this normalization 
process and I think that there is maybe some stakeholders that 
were left out of that conversation. So now we are going to--we 
have been involved in the past, from what I read.
    I kind of struggle with what is discreet and what is secret 
and where USAID--you know, where you ought to end and the CIA 
ought to start.
    And so I kind of--if you would give me an overall picture 
of where the money is going to be going in Cuba, what is 
discreet and what--you know, what our goal for that discreet 
money is, I would really appreciate it.
    Ambassador Lenhardt. Thank you, Congressman, for your 
comments and I echo your opening thoughts about USAID 
personnel. They are truly heroes and heroines doing work around 
the world.
    I thought leaving the military after I retired I would 
never find a group of people who were as highly motivated, 
committed to the task as well as patriotic. But I find them 
here in USAID and I think we can do nothing less than 
continually talk about the goodness and the work that they do.
    Mr. Clawson. With no creature comforts, by the way. I mean, 
they live a tough life.
    Ambassador Lenhardt. And in threatening environments, sir, 
that many of us don't appreciate, don't understand. But they do 
it nonetheless and they do it with great aplomb and they do it 
for all the right reasons, and that is the outreach of the 
American people to wherever it is around the world that they 
find themselves. So thank you for your comments.
    With respect to Cuba, we are committed to programs for 
democracy, civil society and independent media, and so that was 
the emphasis, that was the direction being in Cuba.
    It was--there was nothing nefarious. There was nothing that 
we had any design on other than helping the Cuban people have 
an alternative and causing them to understand that America is 
reaching out to them in ways that was productive and positive. 
We also do humanitarian work with respect to family members of 
prisoners----
    Mr. Clawson. Can I interrupt--can I interrupt just a 
second, just to follow up on what you said with--sorry for 
butting in.
    In the case of Cuba, the government doesn't want us there. 
In other places where I have seen you'all's organization the 
governments usually do want us there. That's an important 
distinction or am I wrong--am I missing something on that?
    Ambassador Lenhardt. No, sir. You are not. But I think it 
is also for us to think through the fact that our work is 
extended to people, the American people to wherever people are 
around the world who are in need, as opposed to governments.
    In many cases, we don't work with governments but we 
certainly provide relief, humanitarian assistance to people and 
so that is the focus. And so if we were to simply cut out the 
fact that people around the world are suffering because of 
their governments is that a reason for us not to help?
    I don't think that is the intent. So we reach--we reach out 
wherever people are in need and so that is why were in Cuba 
trying to provide assistance to the Cuban people at a time when 
their own government does not provide that assistance.
    Mr. Clawson. And the Cuban Government would look at this as 
espionage. Is that right?
    Ambassador Lenhardt. Sir, I am not sure how they would look 
at it as much as to say our focus is on people, bringing the 
American people to the Cuban people in this case.
    But we do it in other places around the world, closed 
societies and, by the way, again, talking about the protection 
of our people and the work that they do, we have a program 
whereby a new design where we specifically encourage and 
counsel people working, independent contractors and the like 
are partners, how to protect themselves, what to look for, how 
to ensure that they are continually mindful of the threat, and 
where that threat is sufficient enough we pull them out or we 
will curtail the contract.
    Mr. Clawson. Yield back. Thank you.
    Mr. DeSantis. Gentleman yields back. The chair now 
recognizes Mr. Castro for 5 minutes.
    Mr. Castro. Thank you, Chair. Thank you, Ambassador, and 
thank you, Ms. Hyde, for your testimony this morning.
    And, Ambassador, thank you. First of all, congratulations 
on a distinguished career and thank you for overseeing USAID 
for us now.
    Let me ask you about the Global Development Lab and the 
wonderful work that you all are doing in development there. If 
you could describe that for us and some of the innovations that 
have taken place because of that work.
    Ambassador Lenhardt. Thank you, Congressman, for your 
question.
    The Global Lab, if I can describe it and looking at it from 
the standpoint of what we are doing, the lab offers us the 
opportunity to think more about leveraging science, technology, 
innovation and partnerships in all of our work.
    They--the lab represents what might be described in other 
businesses as our research and development--how to become 
better at what we do, using the lab to identify ways in which 
we can extend the resources that are entrusted to us as well as 
looking at new opportunities for us to bring in new equipment, 
new partnerships around not only in America but around the 
world.
    And so the lab is that one entity that brings that all 
together. I can use some examples. In the Ebola crisis, for 
instance, they developed a very unique suit that protected 
personnel who were responding--the health workers. They have 
also developed as a result of a challenge we put out various 
creams that would block the Ebola virus.
    But beyond that, we are looking at ways where using things 
like geospatial techniques, how do we do a better job of 
mapping potential problem areas around the world, looking at 
either climate, looking at places where poverty is extensive 
or, for that matter, extreme ideology--where looking at a 
model, putting that all together in terms of how the lab then 
could pinpoint potential problem areas before they occur.
    Mr. Castro. Sure.
    Ambassador Lenhardt. So the lab is something that we see as 
beneficial both today but more importantly long term----
    Mr. Castro. Well, and thank you for that.
    Ambassador Lenhardt [continuing]. And figure out a way to 
institutionalize it into everything that we do.
    Mr. Castro. Sure. And the reason that I bring that up is 
because sometimes there is the impression about U.S. foreign 
aid and the work that USAID does as though the United States is 
simply giving and the countries are taking.
    But the Global Development Lab is an example of how not 
only is it accelerating and improving our development work but 
also leading to technologies and innovations that can be 
helpful in the United States and in countries of the world 
where we are not necessarily even giving aid. So I think that 
is at the cutting edge of the innovative work that USAID does.
    My second question is I just--I left for a little bit to go 
meet with some foreign ministers from Central America--El 
Salvador, Guatemala and Honduras--and let me ask you about the 
President's proposal to offer about $1.14 billion in assistance 
to the Central American countries. Six hundred and thirty-five 
million of that would be through USAID. What kind of work are 
you all anticipating doing there?
    Ambassador Lenhardt. Thank you, Congressman.
    We are looking at continuing much of the work that we are 
doing now and expanding that. We are doing work with respect to 
security in the countries of Guatemala, El Salvador, Honduras 
and providing those opportunities for reducing violence, 
lowering youth unemployment, spurring broad-based economic 
growth in some of the fragile locations, fostering public 
sector accountability, transparency and effectiveness.
    I will tell you also that one of my jobs was President of 
the National Crime Prevention Council here in our country where 
we did a great deal of work in South America and Central 
America with the things like community policing, causing 
communities to have a better sense of security within their own 
neighborhoods by encouraging them to work with local police.
    And in many cases where that came together they were more 
secure and they eliminated the threat both from the standpoint 
of the physical threat but also from the drug cartels, and when 
those neighborhoods came together the drug cartels--they left. 
They got out of the picture.
    So this money then would extend many of those programs and 
offer an opportunity for--through Central America's security 
and prosperity to extend to our own because truly that is part 
of our own back door.
    Mr. Castro. Thank you.
    Mr. DeSantis. Gentleman's time has expired. The chair now 
recognizes himself for 5 minutes.
    Ambassador, have you determined--and I apologize if you 
have answered this before. I was down the hall for another 
hearing.
    But has the administration determined whether the 
Palestinians have violated U.S. law by seeking to enter the 
International Criminal Court and supporting judicially 
authorized investigations against Israel?
    Ambassador Lenhardt. Sure. We have--the Fiscal Year 2016 
budget is under serious review in terms of our support to the 
Palestinian Authority and so I will leave it at that.
    We will come back to the Congress for your counsel as well 
as working with the administration and State Department to 
determine what actions we take going forward.
    Mr. DeSantis. So it is possible that as you examine that 
that you think that funding is not appropriate in light of 
those actions. Is that what you are saying?
    Ambassador Lenhardt. Sir, I am not commenting on that as 
much as to say our programs with respect to the Palestinian 
Authority is under review.
    Mr. DeSantis. And when you--when will you let us know what 
the conclusion is?
    Ambassador Lenhardt. Chair, let me make the commitment to 
come back to you when that does occur and we will respond at 
that point.
    [The information referred to follows:]
  Written Response Received from the Honorable Alfonso E. Lenhardt to 
    Question Asked During the Hearing by the Honorable Ron DeSantis
    USAID, in conjunction with the State Department, continues to 
examine our assistance to the Palestinians to determine how it can best 
be used moving forward. Although our view is that the legislative 
restrictions related to Palestinian initiation or active support for an 
International Criminal Court (ICC) judicially authorized investigation 
have not been triggered to date, we are deeply troubled by Palestinian 
action at the ICC and continue to voice our opposition to further 
actions to both the Palestinians and the international community.
    We continue to believe that U.S. assistance to the Palestinian 
people is an important tool in promoting regional stability, economic 
development, and increased security for both Palestinians and Israelis.

    Mr. DeSantis. So beyond the ICC issue, it has been the 
administration's position, I think, that the unity government 
with the Palestinian Authority between Hamas and Fatah did not 
trigger a defunding which is in the law and I think the reason 
for that is that the administration said Hamas was not 
exercising a ``undue influence'' on the government. So is that 
still the administration's position?
    Ambassador Lenhardt. Sir, again, as I said, it is under 
review and so we will have to come back to you.
    Mr. DeSantis. What can you report on--I know Secretary 
Kerry last year pledged U.S. money to help, you know, rebuild 
the Gaza Strip after the conflict last year and I know other 
Middle Eastern countries like Qatar have pledged billions of 
dollars.
    So what is the status of that? Has the United States 
obligated funds for the rebuilding of the Gaza Strip?
    Ambassador Lenhardt. Sir, I can't comment on that because I 
don't have any specific knowledge. I will tell you about our 
programs--our humanitarian programs, assisting people with 
water, food, health and hygiene products as well as doing some 
teaching, basic education.
    But those are our programs. I cannot comment on something 
that, certainly, I can't control.
    Mr. DeSantis. So but those programs have continued unabated 
in the Palestinian areas?
    Ambassador Lenhardt. Again, our focus is on people and so 
those programs are based on previous years' moneys. For as long 
as those moneys are available we continue to reach out and 
provide humanitarian assistance. But, again, the Fiscal Year 
2016 request is in fact under review.
    Mr. DeSantis. Great. Well, what I would say is money that 
is going to rebuild the Gaza Strip there is a great danger that 
that money is going to be used by Hamas and I think that would 
be a huge mistake if we go down this road where they are 
building more tunnels and they are acquiring more rockets and 
maybe the money goes to the PA.
    But since money is fungible, if there is other money at 
stake that can be diverted for some of those illicit measures. 
I also am concerned about just having traveled over there that 
you still have the Palestinian Authority educating its youth to 
hate Israel, to hate Jews and to seek Israel's elimination.
    And I just think that that is just so toxic and we 
continue, you know, pouring money over there. But if that 
underlying dynamic does not change, you know, I think you are 
going to continue to see a lot of substandard results.
    I yield back the balance of my time and I will--the chair 
will now recognize Mr. Cicilline for 5 minutes.
    Mr. Cicilline. Thank you, Mr. Chairman.
    I want to begin by really congratulating you, Ms. Hyde, on 
the terrific leadership at MCC--as you know, identified as the 
most transparent aid agency in the world and the model that is 
used at the MCC, I think, is really a great example for 
development aid and I have seen very--personally the work done 
in Cape Verde and the kind of success that has happened there 
and I really want congratulate you on that.
    I would like to ask you specifically, I know that Liberia 
is currently seeking to work with the MCC in developing a 
compact. As you know, the Ebola outbreak has had a tremendously 
devastating impact on that country and on the institutions and 
the personnel, and the government, obviously, dealing with an 
already limited capacity has also been constrained by budget 
obligations as well as impact on personnel.
    And I am wondering how MCC and you will be working to 
ensure that they actually have the capacity to benefit from an 
MCC compact. It is, I know, a country that is in serious need 
of support and just wondering how sort of we are thinking about 
that.
    Ms. Hyde. Thank you, Congressman. I appreciate your 
comments as well about Cabo Verde. It has been a model for us 
in many respects, the work that we have done there on the ports 
and in the water management program.
    With respect to Liberia, as you know, there was certainly a 
lull among the development community for their work in Liberia 
and my impression and understanding is that there are many 
efforts underway simultaneously now, and there is a great 
opportunity for us to look at economic growth, for us to work 
together with other donors. And I certainly echo the 
Ambassador's comments about partnerships in what we do and how 
to put the pieces of the puzzle and the funds together.
    So I think we have a real opportunity now to do that in 
Liberia. We have re-engaged vigorously with our colleagues from 
USAID and we have engaged particularly around the energy 
sector. So before the outbreak we had conducted a constraints 
to growth analysis.
    It had, clearly, shown that the energy needs that President 
Sirleaf speaks about so often are the impediment to private 
investment. We know that, and so our efforts are likely to be 
focused on the energy sector, working with Power Africa, and 
the efforts that USAID and OPIC and others are undertaking 
there and to see if we can double, triple the capacity in the 
country.
    We will be doing so mindful of the policy reform 
environment, not just what we will build but what the sector is 
going to look like at the end, and work together with them and 
I think they are enthusiastic for our involvement in that.
    Mr. Cicilline. Great. Thank you.
    Ms. Hyde. Thank you.
    Mr. Cicilline. Mr. Ambassador, thank you for your service 
and thank you again to the heroic staff and personnel of USAID 
for the work they do all over the world.
    I want to just put out three questions and to the extent we 
have time if you can answer them. Otherwise, if you could just 
answer them in writing that would be terrific.
    I am very pleased that the State Department recently 
followed USAID's lead in appointing a special envoy for the 
human rights of LGBT persons, Randy Berry.
    We hope that the offices of USAID's senior LGBT 
coordinator, Todd Larson, and the State's envoy receive robust 
funding to allow them to work together to carry out their 
mandate to protect the basic human rights of LGBT individuals 
globally.
    Many foreign governments have recently proposed or enacted 
discriminatory and sometimes dangerous anti-LGBT legislation. 
So my first question is what role do you see USAID's senior 
LGBT coordinator will play to combat this and other 
discriminatory actions against LGBT individuals around the 
world.
    A second questions is that USAID has done incredible work 
as part of the U.S. participation in the effort to end the 
Ebola outbreak in West Africa. Liberia has gone more than 3 
weeks without a new Ebola case.
    This is a monumental achievement, but as new cases continue 
to be diagnosed in Sierra Leone and Guinea it is clear we must 
remain vigilant in our efforts. Can you provide an update as to 
our efforts that are underway to end unsafe burial practices 
and improve communication in communities that are still seeing 
new cases of Ebola being diagnosed?
    And, additionally, we are hearing reports that survivors of 
Ebola who can continue to infect other individuals with whom 
they have sexual contact. They are not being properly educated 
about these risks or provided with appropriate contraception. 
Can you identify what steps if any the United States is taking 
to help address this risk?
    And, finally, as my colleague mentioned, sexual and gender-
based violence continues to hamper our efforts to reduce global 
poverty. I saw this, particularly, in Liberia last year.
    What steps is USAID taking to address this issue both on 
our own and in partnership with international NGOs? Are there 
successful models? What can we do more effectively and what can 
Congress to do to respond to this really insidious and horrific 
level of violence against girls and women all across the world?
    So I know I have left absolutely no time for you to answer 
those three questions but I look forward to hearing your 
responses in writing and I thank you again for your service.
    Mr. DeSantis. Gentleman's time has expired.
    The chair now recognizes the gentleman from California, Mr. 
Sherman, for 5 minutes.
    Mr. Sherman. I want to pick up on the comments of the 
gentleman from Florida, who is leaving as I applaud his 
comments. And that is there may be a real question here as to 
whether aid to the PA is legal today, given the actions that 
they have taken.
    So it is not a matter of conducting a view with regard to 
next year's budget. You may be illegally spending funds this 
year. So I am hoping that you will come back to us not just 
with a report as to whether the aid is good public policy and 
good development policy but also whether it is legal, and that 
even if you think it is wonderful policy that if it is illegal 
you will stop, not waiting for next year.
    So I wonder if we can count on that kind of legal analysis 
being given to the committee on a prompt basis. Ambassador?
    Ambassador Lenhardt. Thank you, Congressman, for the 
question. I will commit to you that we will take that under 
review and come back with a response.
    Mr. Sherman. The two agencies you represent are doing work 
that is important in and of itself. You are helping the poorest 
countries in the world and the poorest people in the world.
    But the American people are funding these programs not just 
for that purpose but for our geopolitical and to be safer. And 
it would be easy to say well, if only there was economic 
progress then we wouldn't have anything to worry about from a 
geopolitical standpoint.
    But 19 out of 20 of the 9/11 hijackers came from a country 
already way richer than you hope to make the countries that you 
are working in. So it is not enough for our geopolitical 
purposes to just have economic progress in the world.
    That is why Congress has required what I call ``flag on the 
bag''--that you have to aggressively let people know where the 
aid comes from. What I would like to know from each of you is 
do you have public polling to show that people in these 
countries know what the United States is doing or are we just 
hopeful that if you put the flag on the bag people will know 
about it? Ms. Hyde.
    Ms. Hyde. Thank you. Thank you. I appreciate the question.
    I think it is a very strong point and it is something that 
at MCC we are taking a close look at. We don't have public 
polling.
    Mr. Sherman. Okay. That is the answer. Ambassador, do you 
have public--have you done any polling?
    Ambassador Lenhardt. Yes. We--thank you, Congressman, for 
the question.
    Yes, we do, in fact, have a program whereby we focus on 
marketing and ensuring that where it is appropriate that----
    Mr. Sherman. If you have the polling I would like to make 
it part of the record of the hearing.
    Ambassador Lenhardt. Well, we do----
    Mr. Sherman. I know you have marketing. That is not the 
question I asked, though. And I am glad you have it but I want 
to know if you have polling because it is not----
    Ambassador Lenhardt. Well, we do--in answer to the 
question, yes, we do for to assess how are we doing with 
respect to getting our message out--messages out.
    I can tell you that from my experience in Tanzania, very 
powerful. It produced the results that we wanted. As I 
mentioned earlier, Tanzanians are favorably----
    Mr. Sherman. What I will ask you to do is furnish for the 
record the polling because you can have any company--I mean, 
Coca Cola may say we got a great adverting campaign, we are on 
the Super Bowl.
    But then they check to see whether people are buying Coke 
and they do polling to see whether people saw the frisky polar 
bear.
    I want to move on to another question. Pakistan is, I 
think, the most important area for our concerns. We have spent 
$155 million to improve education in Sindh and we have this 
audit report on those efforts.
    I commend you, Ambassador, for those efforts. But the 
inspector general says the program is not achieving its goal, 
hasn't built schools, there hasn't been an improvement in early 
grade reading, community mobilization. Are these problems being 
addressed and are you following the IG's recommendations?
    Ambassador Lenhardt. In answer to the question, yes, 
Congressman. We are in fact looking at the report. But I will 
say beyond that report we also do our own assessments, our own 
evaluations. And so they tell us a different picture that isn't 
perfect but it is certainly making progress.
    [The information referred to follows:]
  Written Response Received from the Honorable Alfonso E. Lenhardt to 
    Question Asked During the Hearing by the Honorable Brad Sherman
    Public awareness polling has been at the heart of USAID's 
``branding and marking'' requirements since the Agency first issued a 
regulation requiring branding and marking in 2004. USAID has continued 
to conduct public polling as part of efforts focusing on increasing 
awareness of U.S. civilian assistance in critical countries. A recent 
example is Pakistan.
    Starting in 2011, as one component of a broader communications 
strategy formulated and implemented with the Department of State, 
USAID/Pakistan began implementing a multi-media, multi-lingual media 
campaign, employing a local Pakistani implementer, with a focus on 
increasing awareness of USAID assistance to the Pakistani people. To 
measure the effectiveness of the campaign, USAID/Pakistan also 
contracted with an independent company to conduct nationwide polling.
    Since the beginning of the paid media campaign, USAID aired 78,500 
TV spots, 47,000 radio spots, 31,000 movie theater spots and 221,040 
cable TV spots. The campaign also reached 69,566,000 digital 
impressions. USAID is currently in the process of procuring a follow-on 
media campaign activity.
    During the three-year campaign, now completed, polling showed an 
increase in awareness of U.S. assistance, from 34% in 2011 to 47% in 
2014. The polling also showed a direct correlation between Pakistanis 
aware of USAID's work and increased favorability towards the United 
States.
    Since 2011, USAID has also run a weekly Urdu-language radio show 
that is broadcast across 70 percent of the country. Each weekly radio 
show features a specific USAID program and includes a discussion with 
USAID staff, implementers, and beneficiaries.

    Mr. Sherman. I want to thank you for the effort. I think it 
is very important. I think it is the most geopolitically 
important country to us.
    And, finally, I am going to shift over and maybe you can 
furnish some information to the record, Ms. Hyde--what does 
Armenia have to do to get another compact? And since I have 
zero time that will probably be a response for the record 
unless the chairman wants to hear you orally.
    Mr. Yoho. We will give you 30 seconds.
    Ms. Hyde. The board just recently set forth criteria for a 
second compact. The three criteria are success in the first 
compact, progress on the scorecard and a commitment to reform--
policy reforms going forward.
    I know that Armenia has made progress on the political 
rights indicator which was the challenge in our first compact. 
We will be looking to evaluate a second compact against those 
criteria.
    Mr. Sherman. Thank you.
    Mr. Yoho. Thank you. The gentleman's time has expired.
    The chair will now recognize Ms. Gabbard from Hawaii.
    Ms. Gabbard. Thank you very much, Mr. Chairman. Thank you 
very much.
    I met yesterday with a woman who is the chairman of the 
Kurdistan regional government's High Council on Women's Affairs 
and I am wondering if you can speak to what work or what types 
of assistance you are providing there to the either the Kurdish 
Government directly or to the NGOs who are operating there.
    A few of the areas that were brought up of concern, 
obviously, are the ballooning numbers of refugees and IDPs who 
currently exist there and the costs that that is taking there 
on infrastructure and resources, both in the economic sense.
    But, specifically, they spoke about the assistance needed 
which they are not currently getting for many of the women and 
girls who have been rescued from ISIS who are coming back with 
unimaginable types of trauma and violence that they have lived 
through.
    Yet they are being welcomed back to their families and 
communities but not having the resources and tools to be able 
to help both these, you know, Christian and Yazidi women and 
girls but also their families.
    Ambassador Lenhardt. Thank you, Congresswoman for the 
question.
    We are providing humanitarian assistance to the entire 
populations in the country as opposed to targeting specifically 
the Kurdish population.
    They are included in that--our outreach specifically as you 
relate this story. I am not aware of that. It is something that 
I certainly will take back and look into and see what if 
anything we can learn from and focus on.
    [The information referred to follows:]
  Written Response Received from the Honorable Alfonso E. Lenhardt to 
    Question Asked During the Hearing by the Honorable Tulsi Gabbard
    The U.S. government has provided nearly $220 million for 
humanitarian assistance to Iraqis in the region since the start of 
Fiscal Year 2014. Of the nearly $220 million, the State Department's 
Bureau for Population, Refugees and Migration (PRM) has provided $182.3 
million, USAID has provided $29.74 million, and the Department of 
Defense has provided $7.5 million.
    U.S. government humanitarian assistance in Iraq is based solely on 
vulnerability and need, and delivered on an impartial basis by trusted 
partners. These partners include United Nations (U.N.) agencies, public 
international organizations such as the International Committee of the 
Red Cross and the International Organization for Migration, and non-
governmental organizations. No U.S. humanitarian assistance is 
channeled through government bodies in Iraq. Overall coordination of 
the humanitarian effort in Iraq is facilitated by the U.N. under the 
leadership of the Deputy Special Representative of the Secretary-
General, Resident Coordinator and Humanitarian Coordinator, Lise 
Grande. To ensure the most effective response and to avoid duplication 
of efforts, the U.N. coordinates with relevant government bodies such 
as the Joint Coordination and Monitoring Center in Baghdad and the 
Joint Crisis Coordinating Center in Erbil.
    U.S. government humanitarian assistance is focused on the provision 
of food and other relief commodities, shelter (including repairs), 
water and sanitation, health care, protection (including specialized 
services for women, children, and survivors of sexual and gender-based 
violence), and humanitarian coordination and logistics. Rather than 
being targeted to particular communities or locations, U.S. 
humanitarian assistance is provided on a country-wide basis, and 
focused on the populations in greatest need who can be reached by our 
humanitarian partners. Currently it is too dangerous for many relief 
organizations to work in Islamic State In Iraq and the Levant (ISIL)-
held areas, therefore, the majority of U.S. humanitarian assistance is 
concentrated among Iraqi internally-displaced persons and Syrian 
refugee populations in the north, center and south of the country.
    Despite the ongoing strong support by the United States to 
vulnerable Iraqis, tremendous needs remain. We regularly urge other 
donors to contribute generously to the U.N. appeal for Iraq, and we 
continue to press the Government of Iraq to support its displaced 
citizens.
    Finally, I would note that key humanitarian staff from USAID and 
the State Department also met with the Chair of the Iraqi Kurdistan 
Region (IKR) High Council on Women's Affairs to hear her perspectives 
and view from the field--part of a constant effort to meet all actors 
on the ground involved in addressing the humanitarian crisis in Iraq.

    Ambassador Lenhardt. But we are providing humanitarian 
assistance to the area and the Kurdish people are, certainly, 
within that envelope.
    Ms. Gabbard. Through the Iraqi--through all of the dollars 
that you are providing are going through the government in 
Baghdad or are you providing direct assistance to the Kurdish 
Government?
    Ambassador Lenhardt. It is going through--it is a 
combination and so there are resources going to Baghdad and 
then they further put that out. But we also have implementing 
partners who are working within the country who are--have a 
contract with us and they are doing that work based upon that 
contract.
    Ms. Gabbard. I would be interested to get the details of 
how that breaks down because both yesterday and time and time 
again, both in the area of defense but also with humanitarian 
aid, what we hear constantly from them is that they are not--
they are only seeing a fraction of what is sent through 
Baghdad.
    So actually getting a breakdown of what ends up there 
specifically in Kurdistan where you are seeing all of this 
activity is something, I think, is important for us to know.
    The other question I had was with regard to the funding 
being provided. I know there was a 17-percent increase in 
funding toward Syria and fighting the Islamic State. The CRS 
report that we have here mentions that most of the requested 
funding is going to address the impact of the crisis on Syria's 
neighbors, including $1 billion to help counter ISIS and 
mitigate Syria-related economic and security concerns in Jordan 
as well as another $335 million to strengthen Iraq's 
counterterrorism capabilities.
    I guess, specifically, I am wondering same--similar 
question, how that is being distributed and what--to what--to 
what end if you are talking about countering ISIS using USAID 
funds. How is that being used?
    Ambassador Lenhardt. The last part--I am sorry, ma'am.
    Ms. Gabbard. How are the specified intent of these funds 
both going to Jordan and Iraq and other countries as stated as 
countering the Islamic State and I am wondering how are those 
funds being used.
    Ambassador Lenhardt. Thank you for the question. But, 
again, it is about humanitarian assistance as opposed to 
countering ISIL or anyone else, for that matter. These funds 
are intended to help people and so that is the focus.
    Let me correct one other thing as well. I didn't want to 
leave the impression that we provide humanitarian assistance 
through the Government of Iraq. Those--that assistance takes 
the form of infrastructure, large projects. Humanitarian 
assistance goes directly to people. So that is what we do more 
than anything that----
    Ms. Gabbard. How do you do--what do you--you say directly 
to people. Through what avenue or what platform?
    Ambassador Lenhardt. Through implementing partners on the 
ground who are actually on the scene providing that assistance, 
take the form of food, water, health care, as many other 
commodities that we produce.
    Ms. Gabbard. Thank you. I thank you for the clarification. 
I would love to--if you could send us information on some of 
the partners who you are working with specifically to deal with 
this issue of the women and girls who have been rescued and who 
are going through this post-traumatic stress and how those 
services are being provided. Thank you.
    Mr. Yoho. The lady's time has expired and we have come 
close to the conclusion of this and we want to thank you guys 
both for being here.
    But I have one follow-up question. I am reading the CRS 
summary here and it says, ``Persistent challenges to effective 
evaluation include unclear aid objectives, funding and 
personnel constraints, emphasis on accountability for funds, 
methodological challenges, compressed time lines,'' and this is 
something I find--I hear over and over again, ``country 
ownership and donor coordination.'' It goes on and on.
    My question is how do you increase the want of the 
government and the citizens with the aid we give? And we were 
on a CODEL in South America and the people that were doling out 
our money, helping a situation--and this was dealing with 
narcotics--they said, we have got all these resources, we have 
got the equipment, we have got the money but they just don't 
want to do it.
    And it reminded me of when I was a little kid and my mom 
wanted me to play the piano, and she worked two jobs to pay for 
the piano lessons and for 7 years she did that and I would sit 
there and I didn't want to play the piano, and she finally got 
it and walked away.
    And I see that so many times. We offer this money and you 
have a breakdown of--you know, maybe they are a corrupt 
government, we are giving them money and they are not using the 
money the way they are supposed to and you talk about the 
accountability you have.
    How do you increase that want? Just if you have an idea how 
we can do that to make our money more effective--our aid more 
effective.
    Ambassador Lenhardt. Yes. Thank you, Congressman, for the 
question.
    It has to come from a desire to want to do more, having a 
sense of ownership, having a sense of commitment. I will tell 
you how we did it in Tanzania.
    We asked the Tanzanians themselves, what are the--what are 
your priorities, what are things that you hope to achieve. And 
in thinking, looking at it and assessing, evaluating those 
priorities and their desires with our own national interests, 
and where those same came together if we could support it then 
we supported it. And, miraculously, and not surprisingly the 
Tanzanians were much more enthusiastic about carrying that out.
    And so part of this has to be how to we involve the 
country--how do we involve that government to have a good sense 
that this is something that we want to do and then how do you 
hold their feet to the fire.
    Mr. Yoho. Exactly.
    Ambassador Lenhardt. Causing reforms to be realized and it 
is a carrot and a stick.
    Mr. Yoho. Ms. Hyde, anything else you want to add to that?
    Ms. Hyde. The tool--the scorecard. So we have countries 
that are vying for MCC assistance, and it is interesting to see 
when you put out 20 indicators and you say to leaders, you are 
only ranking here and your neighbor is ranking here. It is a 
competitive-based system that is incentivizing countries to 
change their laws to try to get MCC assistance.
    So we have partners that come to the table with the want. 
With that we pursue a country ownership model that says you 
will have controls and oversight but we will have final 
authority on accountability. We need to be accountable for 
these funds and so we will pursue it that way.
    And, finally, we do 100 percent independent evaluations on 
both performance and impact of our programs. So we are 
evaluating what we do. We pay for that. But we think that is a 
wise investment.
    Mr. Yoho. All right. I appreciate your time. I appreciate 
you being here and taking time out and the committee's--and the 
committee stands adjourned.
    Thank you.
    [Whereupon, at 12:14 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         

                                 <all>
</pre></body></html>
